<html>
<title> - WE'LL ALWAYS HAVE PARIS: FILLING THE LEADERSHIP VOID CAUSED BY FEDERAL INACTION ON CLIMATE CHANGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


WE'LL ALWAYS HAVE PARIS: FILLING THE LEADERSHIP VOID CAUSED BY FEDERAL 
                       INACTION ON CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON ENVIRONMENT AND CLIMATE CHANGE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2019

                               __________

                           Serial No. 116-11
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-534 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                       
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Environment and Climate Change

                          PAUL TONKO, New York
                                 Chairman
YVETTE D. CLARKE, New York
SCOTT H. PETERS, California          JOHN SHIMKUS, Illinois
NANETTE DIAZ BARRAGAN, California      Ranking Member
A. DONALD McEACHIN, Virginia         CATHY McMORRIS RODGERS, Washington
LISA BLUNT ROCHESTER, Delaware       DAVID B. McKINLEY, West Virginia
DARREN SOTO, Florida                 BILL JOHNSON, Ohio
DIANA DeGETTE, Colorado              BILLY LONG, Missouri
JAN SCHAKOWSKY, Illinois             BILL FLORES, Texas
DORIS O. MATSUI, California          MARKWAYNE MULLIN, Oklahoma
JERRY McNERNEY, California           EARL L. ``BUDDY'' CARTER, Georgia
RAUL RUIZ, California, Vice Chair    JEFF DUNCAN, South Carolina
DEBBIE DINGELL, Michigan             GREG WALDEN, Oregon (ex officio)
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     1
    Prepared statement...........................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     4
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     9
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    12
Hon. Debbie Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................    80

                               Witnesses

Carla Frisch, Principal, Rocky Mountain Institute................    14
    Prepared statement...........................................    16
    Answers to submitted questions...............................   171
Samuel Thernstrom, Founder and Chief Executive Officer, Energy 
  Innovation Reform Project......................................    20
    Prepared statement...........................................    22
    Answers to submitted questions...............................   173
Nathan E. Hultman, Ph.D., Director, Center for Global 
  Sustainability, School of Public Policy, University of Maryland    27
    Prepared statement...........................................    29
    Answers to submitted questions...............................   179
Andrew Light, Ph.D., Distinguished Senior Fellow, World Resource 
  Institute......................................................    37
    Prepared statement...........................................    40
    Answers to submitted questions...............................   184

                           Submitted Material

Article of December 19, 2018, ``Getting to Zero Carbon Emissions 
  in the Elctric Power Sector,'' by Jesse D. Jenkins, et al., 
  Joule, submitted by Mr. Tonko..................................    81
Report of the World Resources Institute, ``Tracking Progress of 
  the 2020 Climate Turning Point,'' by Mengpin Ge, et al., 
  February 2019,bmitted by Mr. Tonko\1\
Report, Executive Summary of ``Fulfilling America's Pledge: How 
  States, Cities, and Businesses Are Leading the United States to 
  a Low-Carbon Future,'' Bloomberg Philanthropies, submitted by 
  Mr. Tonko......................................................    93
U.S.A. First Nationally Determined Contribution to the Paris 
  Agreement, submitted by Mr. Tonko..............................   121

----------

\1\ The information has been retained in committee files and also is 
available at http://docs.house.gov/meetings/IF/IF18/20190228/108973/
HHRG-116-IF18-20190228-SD007.pdf.
Letter of February 27, 2019, from Stephen Eule, Vice President 
  for Climate & Technology, Global Energy Institute, U.S. Chamber 
  of Commerce, to Mr. Pallone, et al., submitted by Mr. Tonko....   126
Paris Agreement, English Text, United Nations 2015, submitted by 
  Mr. Tonko......................................................   136
Statement by President Trump on the Paris Climate Accord, June 1, 
  2017, submitted by Mr. Tonko...................................   162

 
WE'LL ALWAYS HAVE PARIS: FILLING THE LEADERSHIP VOID CAUSED BY FEDERAL 
                       INACTION ON CLIMATE CHANGE

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2019

                  House of Representatives,
    Subcommittee on Environment and Climate Change,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Paul Tonko (chairman of the subcommittee) presiding.
    Members present: Representatives Tonko, Clarke, Peters, 
Barragan, McEachin, Blunt Rochester, DeGette, Schakowsky, 
Matsui, McNerney, Ruiz, Dingell, Pallone (ex officio), Shimkus 
(subcommittee ranking member), Rodgers, McKinley, Johnson, 
Long, Carter, Duncan, and Walden (ex officio).
    Staff present: Adam Fischer, Policy Analyst; Jean Fruci, 
Energy and Environment Policy Advisor; Waverly Gordon, Deputy 
Chief Counsel; Caitlin Haberman, Professional Staff Member; 
Rick Kessler, Senior Advisor and Staff Director, Energy and 
Environment; Brendan Larkin, Policy Coordinator; Dustin J. 
Maghamfar, Air and Climate Counsel; Mike Bloomquist, Minority 
Staff Director; Jerry Couri, Minority Deputy Chief Counsel, 
Environment; Jordan Davis, Minority Senior Advisor; Margaret 
Tucker Fogarty, Minority Staff Assistant; Peter Kielty, 
Minority General Counsel; Mary Martin, Minority Chief Counsel, 
Energy and Environment; Brandon Mooney, Minority Deputy Chief 
Counsel, Energy; Brannon Rains, Minority Staff Assistant; and 
Peter Spencer, Minority Senior Professional Staff Member.
    Mr. Tonko. The Subcommittee on Environment and Climate 
Change will now come to order. I recognize myself for 5 minutes 
for the purpose of an opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    In late 2015, driven by American leadership, the world came 
together to acknowledge the threat of climate change and make 
plans for cooperative global efforts in mitigation, adaptation, 
and finance.
    The purpose is to reduce greenhouse gas emissions to limit 
global temperature increase to well below 2 degrees Celsius. 
The ingenuity of the Paris Agreement is that it builds from the 
bottom up. It does not dictate specific reductions or remedies.
    Each country sets its own target, submits a Nationally 
Determined Contribution, or NDC, to achieve those targets, 
reports on their emissions, and, hopefully, increases their 
ambition over time.
    The United States, for example, committed to reduce its 
emissions by 26 to 28 percent below 2005 levels by 2025. This 
achievable commitment was based on a plan that included a 
number of actions: adopting fuel economy standards for light- 
and heavy-duty vehicles, cutting carbon pollution from new and 
existing power plants, reducing methane emissions, addressing 
building sector efficiency, and developing new alternatives to 
HFCs.
    Today, despite the obvious and growing threat posed by the 
climate crisis, many of these policies are being delayed or 
undone by the Trump administration. The Rhodium Group's 
``Taking Stock 2018'' report found that U.S. emissions under 
current policy are heading toward 12 to 20 percent below 2005 
levels in 2025, well short of the U.S. target.
    In June of 2017, President Trump announced his intent to 
withdraw the United States from the Paris Agreement, although 
it is important to note that this cannot be done formally until 
November of 2020.
    Still, as time goes by, I know that many of his supporters, 
possibly including some in this room, will come to regret this 
decision. President Trump may not understand the importance of 
international climate cooperation, but thousands of others, 
including States, cities, businesses, and universities have 
stepped up and said, ``We are still in.''
    If you add them all up, these non-Federal actors would have 
the third largest economy in the world. And their commitments 
are not just lip service. They are taking tangible steps and 
filling America's leadership void through organizations such as 
the United States Climate Alliance and the Climate Mayors 
coalition.
    Last year, California even organized the Global Climate 
Action Summit with world leaders and garnered a new round of 
commitments.
    To support these efforts, the climate organization 
America's Pledge has sought to compile and quantify subnational 
actions. According to their ``Fulfilling America's Pledge'' 
report, these actions could meet about two-thirds of what is 
needed for America's commitment.
    While these efforts are keeping our targets within reach, 
they are not enough. More must be done. We need Federal 
policies and we need real leadership.
    While President Trump has pulled America's seat at the 
table, other countries, including China and India, continue to 
write the international rules on emissions monitoring, 
reporting, and transparency, and work towards achieving their 
NDCs.
    I have heard some spurious arguments from Members in the 
past about the Paris Agreement and the commitments of other 
countries. But people must understand what we give up by 
walking away.
    If those Members do not trust these other countries, that 
is an important reason to stay in and fight for stronger 
reporting and transparency rules. And if Members really want 
other countries to set bolder targets, the United States should 
not set such a poor example and hurt our credibility.
    At our last hearing, I was pleased to hear a new bipartisan 
consensus around the realities of climate change. America's NDC 
is a voluntary, nonbinding commitment. If anyone thinks it is 
too difficult to achieve, they should say so and push for a 
different target.
    But if we agree that climate change is a problem, there is 
no reason to support the President's withdrawal. Our 
subcommittee members also seem to agree that energy innovation 
is an important part of any climate solution.
    In this vein, I want to remind my colleagues of the 
announcement that coincided with Paris under the banner of 
``Mission Innovation.'' Twenty countries committed to doubling 
their clean energy R&D investment over 5 years, which will be 
bolstered by private sector commitments.
    I hope we can expect those calling for more innovation to 
also support that initiative. Global problems require global 
cooperation. We accept this when it comes to countless 
security, health, and economic issues, and we know that climate 
change impacts all of these areas, and more.
    We cannot hide from the mantle and the accompanying 
responsibility of being the greatest nation on Earth. The 
United States must lead. Others will be guided by our example.
    I said in our first climate hearing that we are behind, but 
it is not too late. We are still in Paris and there is still 
time to reach America's 2025 target.
    But that takes Congress getting serious. It means pushing 
back on administration actions that take us in the wrong 
direction and it means putting forward new policies that will 
accelerate clean-energy deployment and reduce climate 
pollution.
    Thank you all for being here this morning. I look forward 
to hearing from our witnesses. Before we introduce them, I will 
recognize Mr. Shimkus, our Republican leader on the 
Subcommittee on Environment and Climate Change, for 5 minutes 
with his opening statement.
    Welcome.
    [The prepared statement of Mr. Tonko follows:]

                 Prepared statement of Hon. Paul Tonko

    In late 2015, driven by American leadership, the world came 
together to acknowledge the threat of climate change and make 
plans for cooperative, global efforts in mitigation, 
adaptation, and finance. The purpose is to reduce greenhouse 
gas emissions to limit global temperature increase to well 
below 2 degrees Celsius.
    The ingenuity of the Paris Agreement is that it builds from 
the bottom-up. It does not dictate specific reductions or 
remedies.
    Each country sets their own targets, submits a Nationally 
Determined Contribution, or NDC, to achieve those targets, 
reports on their emissions, and hopefully increases their 
ambition over time.
    The United States, for example, committed to reduce its 
emissions by 26 to 28 percent below 2005 levels in 2025.
    This achievable commitment was based on a plan that 
included a number of actions: adopting fuel economy standards 
for light- and heavy-duty vehicles, cutting carbon pollution 
from new and existing power plants, reducing methane emissions, 
addressing building sector efficiency, and developing new 
alternatives to HFCs.
    Today, despite the obvious and growing threat posed by the 
climate crisis, many of these policies are being delayed or 
undone by the Trump administration. The Rhodium Group's 
``Taking Stock 2018'' report found that U.S. emissions under 
current policy are heading towards 12 to 20 percent below 2005 
levels in 2025, well-short of the U.S. target.
    In June 2017, President Trump announced his intent to 
withdraw the United States from the Paris Agreement, although 
it is important to note that this cannot be done formally until 
November 2020.
    Still, as time goes by, I know that many of his supporters, 
possibly including some in this room, will come to regret this 
decision.
    President Trump may not understand the importance of 
international climate cooperation, but thousands of others, 
including States, cities, businesses, and universities have 
stepped up and said, ``We're still in.''
    If you add them all up, these non-Federal actors would have 
the third largest economy in the world.
    And their commitments are not just lip service. They are 
taking tangible steps and filling America's leadership void 
through organizations such as the U.S. Climate Alliance and the 
Climate Mayors coalition. Last year, California even organized 
the Global Climate Action Summit with world leaders and 
garnered a new round of commitments.
    To support these efforts, the climate organization 
America's Pledge has sought to compile and quantify subnational 
actions. According to their ``Fulfilling America's Pledge'' 
report, these actions could meet about two-thirds of what is 
needed for America's commitment. While these efforts are 
keeping our targets within reach, they are not enough. More 
must be done. We need Federal policies and real leadership.
    While President Trump has pulled America's seat at the 
table, other countries, including China and India, continue to 
write the international rules on emissions monitoring, 
reporting, and transparency, and work towards achieving their 
NDCs. I have heard some spurious arguments from Members in the 
past about the Paris Agreement and the commitments of other 
countries.
    But people must understand what we give up by walking away.
    If those Members do not trust these other countries, that 
is an important reason to stay in and fight for stronger 
reporting and transparency rules.
    And if Members really want other countries to set bolder 
targets, the U.S. should not set such a poor example and hurt 
our credibility.
    At our last hearing, I was pleased to hear a new, 
bipartisan consensus around the realities of climate change.
    America's NDC is a voluntary, nonbinding commitment. If 
anyone thinks it is too difficult to achieve, they should say 
so, and push for a different target. But if we agree that 
climate change is a problem, there is no reason to support the 
President's withdrawal.
    Our subcommittee members also seem to agree that energy 
innovation is an important part of any climate solution.
    In this vein, I want to remind my colleagues of the 
announcement that coincided with Paris under the banner of 
``Mission Innovation.'' 20 countries committed to doubling 
their clean energy R&D investments over 5 years, which will be 
bolstered by private sector commitments. I hope we can expect 
those calling for more innovation to also support this 
initiative. Global problems require global cooperation. We 
accept this when it comes to countless security, health, and 
economic issues. And we know that climate change impacts all of 
these areas, and more.
    We cannot hide from the mantle--and the accompanying 
responsibility--of being the greatest nation on Earth. The 
United States must lead. Others will be guided by our example.
    I said in our first climate hearing that we are behind, but 
it is not too late. We are still in Paris, and there is still 
time to reach America's 2025 target. But that takes Congress 
getting serious. It means pushing back on administration 
actions that take us in the wrong direction.
    And it means putting forward new policies that will 
accelerate clean energy deployment and reduce climate 
pollution.
    Thank you all for being here this morning. I look forward 
to hearing from our witnesses.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I think a useful 
purpose of the hearing this morning will be to learn more about 
the technologies and actions that are expected to accelerate 
the reduction of U.S. carbon dioxide emissions.
    I am not sure all of these actions will be viable or cost 
effective. I am also not sure that all these actions will be in 
the best interests of the United States, especially if they end 
up putting us in an economic or strategic disadvantage to our 
global competitors.
    But it is important to gather this information for the 
committee's future consideration. Another purpose of this 
hearing, as you have indicated, is to examine the importance of 
the United States staying in the Paris Agreement, which 
President Obama formally accepted in late 2016, from which 
President Trump announced less than 10 months later in June 
2017 that the United States would withdraw under the terms of 
the agreement.
    Fair points may be made about what the Paris Agreement 
represents in terms of a broad-based international cooperation, 
but that is not really the issue here.
    The issue is how the Obama administration made expensive 
commitments that would bind U.S. action without broad-based 
support from congressional policymakers. The commitments, the 
financial pledges, and the costly burdens from implementing 
regulations that will be needed to meet our obligations were 
not submitted to or approved by Congress.
    Without that national political buy-in on such a 
complicated policy that would affect all sectors of the U.S. 
economy and people's daily lives, it is no wonder the new 
administration would change course.
    The consumer cost and competitive harm the commitments pose 
to the Nation deserve close and careful attention and approval 
from policymakers. And this is not a U.S. problem alone. While 
other developed nations may be, quote, unquote, ``staying in'' 
the agreement so far, they are not actually following through 
on their promises.
    The Climate Action Tracker, a European consortium of 
research organizations, found that nations' commitments will 
not meet the actual goals in the Paris Agreement, and the 
Washington Post reported on this research last October. Most 
major nations are making few if any efforts to meet their 
goals.
    The European Climate Action Network, another think tank, 
reported last summer that all European Union countries are off 
target. No single country in Europe is performing sufficiently 
to meet the Paris Agreement goals and those that have been 
making the most progress on their promises did not make any 
large commitments in the first place.
    At the same time, we have the United Nations Gap Report 
released this past November which assessed the situation and 
reported that all these countries will have at least to triple 
their efforts to meet the Paris Agreement's basic goals, if not 
increase their goals fivefold to meet the more stringent 
temperature targets. I am not sure that is going to go so well. 
In France, we have witnessed the Paris riots, which were 
sparked over government's climate-related proposal to increase 
gasoline taxes on the rural French.
    In Germany, according to news reports last week, a climate 
law to get the nation back on track with its Paris emission 
goals by 2030 has been threatening to break up the coalition 
government in Germany. Germany, of course, has turned away from 
nuclear energy and increased coal production as well as 
emissions over the past 5 years.
    Finally, as we discussed in our hearing three weeks ago, 
there is a developing--there is the developing world, which is 
participating in this agreement but will produce almost all the 
growth in future carbon dioxide emissions as billions of people 
understandably seek access to affordable energy.
    The plain fact here is goals of the international climate 
agreements, which are to move towards lower-emitting systems in 
energy, transportation, industry, agriculture are not going to 
work unless there is sufficient affordable technology to deploy 
on a massive scale.
    You cannot get there in a meaningful way with wind and 
solar without undermining industrial capacity and economic 
well-being.
    So I will continue to say, Mr. Chairman, when it comes to 
addressing climate change let us take action. But let us be 
smart and pragmatic about it. We should focus on realistic 
solutions to prepare for the future and on policies that work 
for the American people.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Thank you Chairman Tonko. I think a useful purpose of the 
hearing this morning will be to learn about technologies and 
actions that are expected to accelerate the reduction of U.S. 
carbon dioxide emissions.
    I'm not sure all these actions will be viable or cost 
effective. I am also not sure that all these actions will be in 
the best interest of the United States, especially if they end 
up putting us at an economic or strategic disadvantage to our 
global competitors. But it is important to gather this 
information for the committee's future consideration.
    Another purpose of this hearing--as you have indicated--is 
to examine the importance of the United States staying in the 
Paris Agreement, which President Obama formally accepted in 
late August 2016, and from which President Trump announced less 
than ten months later, in June 2017, that the United States 
would withdraw-under the terms of the agreement.
    Fair points may be made about what the Paris Agreement 
represents in terms of broad-based international cooperation. 
But that is not really the issue here.
    The issue here is how the Obama administration made 
expensive commitments that would bind U.S. action without 
broad-based support from Congressional policy makers. The 
commitments, the financing pledges, and the costly and 
burdensome implementing regulations that would be needed to 
meet our obligations were not submitted to or approved by the 
Congress.
    Without that national political buy-in on such a 
complicated policy that would affect all sectors of the U.S. 
economy, and people's daily lives, it is no wonder a new 
administration would change course. The consumer costs and 
competitive harm the commitments posed to the Nation, deserved 
close and careful attention and approval from policy makers.
    And this is not a U.S. problem alone. While other developed 
nations may be ``staying in'' the Agreement so far, they are 
not actually following through on their promises.
    The Climate Action Tracker, a European consortium of 
research organizations, found that nations' commitments will 
not meet the actual goals in the Paris Agreement. And as the 
Washington Post reported on this research last October, most 
major nations are making few, if any efforts to meet their 
goals.
    The European Climate Action Network, another think tank, 
reported last summer that all European Union countries are off 
target: No single country in Europe is performing sufficiently 
to meet Paris Agreement goals. And those that have been making 
the most progress on their promises, did not make large 
commitments in the first place.
    At the same time, we have the United Nations Emissions Gap 
Report, released this past November, which assessed the 
situation and reported that all these countries will have to at 
least triple their efforts to meet the Paris Agreement's basic 
goals--if not increase their goals five-fold to meet more 
stringent temperature targets. I'm not sure that is going to go 
so well.
    In France, we have witnessed the Paris riots, which were 
sparked over the government's climate-related proposal to 
increase gasoline taxes on the rural French.
    In Germany, according to news reports last week, a climate 
law to get the nation back on track with its Paris emissions 
goals by 2030 has been threatening to break up the coalition 
government. Germany, of course, has turned away from nuclear 
energy and increased coal production, as well as emissions, 
over the past 5 years.
    Finally, as we discussed in our hearing three weeks ago, 
there is the developing world, which is participating in the 
Agreement, but will produce almost all the growth in future 
carbon dioxide emissions as billions of people understandably 
seek access to affordable energy.
    The plain fact here is, goals of the international climate 
agreements, which are to move towards lower emitting systems in 
energy, transportation, industry, agriculture are not going to 
work unless there is sufficient, affordable technology to 
deploy at a massive scale. You cannot get there in a meaningful 
way with wind and solar without undermining industrial capacity 
and economic well-being.
    So I will continue to say: Mr. Chairman, when it comes to 
addressing climate change, let's take action, but let's be 
smart and pragmatic about it. We should focus on realistic 
solutions to prepare for the future, and on policies that work 
for the American public.

    Mr. Shimkus. And with that, Mr. Chairman, I yield back the 
balance of my time.
    Mr. Tonko. Thank you, Mr. Leader, and the gentleman yields 
back.
    The Chair now recognizes Mr. Pallone, chairman of the full 
committee, for 5 minutes for his opening statement.
    Mr. Pallone?

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    I am not sure I want to criticize Mr. Shimkus because he is 
probably more of an ally on this than many on the other side of 
the aisle. But I do want to take--I do take somewhat offense, 
John, to the fact that when you talk about these other 
countries that are--that continue to adhere or want to adhere 
to the Paris Agreement, at least they are trying.
    I mean, sure, it is true that, you know, Macron tries 
something and he gets resistance. Sure, it is true that the 
chancellor in Germany tries something and they meet resistance. 
I am not arguing that. I think we all know that. We read the 
news.
    But at least they are saying that the Paris Agreement as a 
goal makes sense and that they would like to try to reach those 
goals. The reason that I am so critical and will continue to be 
of our President is because he says the opposite. He says, ``I 
don't want to meet the goals. I want to withdraw from the Paris 
Agreement.''
    He is not making any attempt to move forward to address 
climate change. In fact, he is moving in the opposite 
direction. The initiatives like the Clean Power Plan and the 
fuel efficiency standards that were put in place under 
President Obama he wants to scrap.
    So I think it is a little disingenuous, I guess, to 
criticize other countries that are trying to meet the Paris 
goals and leaders that are trying to meet the Paris goals. 
Sure, they are going to--you know, they are going to have a 
hard time. There are going to be those that push back. They are 
going to have pitfalls. But they are at least trying.
    The problem here is that our President is saying the 
opposite. He said, I don't want to do that--I don't care. You 
know, I am going to move in the opposite direction.
    And I think that is what is really bad is just abrogation 
of American leadership that goes along with saying you are 
going to withdraw from the Paris Agreement.
    But in any case, I know I am criticizing you but I don't 
mean to do it too hard because you are probably the best friend 
we have.
    Anyway, I wanted to thank Chairman Tonko for scheduling 
this hearing as the committee continues to discuss the growing 
crisis of climate change and the ways that we can combat it.
    For the last 2 years, President Trump, his administration, 
and Republicans here in Congress have repeatedly pushed actions 
and policies that would only make the crisis worse.
    We are here today to discuss one of these actions. 
President Trump's decision to pull out of the Paris Agreement 
is unjustified and dangerously shortsighted. It abdicates U.S. 
leadership on global climate action--an issue where America has 
always been a leader--and breaks our promise to all nations who 
joined the historic agreement.
    I believe the Trump administration's retreat puts the 
health and safety of our communities at great risk and 
seriously jeopardizes our future security. It also puts our 
economic future at great risk as the world embarks on a major 
transition to a low-carbon economy.
    President Trump now wants to pull us out of that agreement. 
The Paris Agreement--an agreement reached by nearly 200 
nations--was an important unified stand in the fight against 
our changing climate.
    It sets a strong foundation for action that will accelerate 
the shift to a clean-energy economy and puts us on the path to 
a safer healthier planet for generations to come.
    It is also our best hope of mobilizing the global action 
needed to avoid catastrophic changes to our environment and the 
Paris Agreement represents a significant departure from past 
efforts to secure international cooperation on climate change. 
It allows each nation to design its own emission reduction 
strategy that is best suited to the unique circumstances of its 
society and economy.
    Importantly, the Paris Agreement applies to all parties to 
the Convention, including India and China. It also includes 
critical transparency and accountability measures to ensure 
countries are meeting their emissions reduction goals and have 
the flexibility to make any necessary adjustments to stay on 
track.
    The Obama administration's plan to meet the goals of this 
agreement were reasonable, achievable, and balanced. It 
provided a framework in reducing U.S. emissions while also 
growing our economy.
    More energy-efficient appliances, buildings, and vehicles 
result in lower costs for consumers and keep our manufacturing 
industries competitive globally, all while lowering emissions 
of harmful air pollutants.
    The plan also calls for controlling methane emissions from 
the oil and gas sector, which was a long-overdue and sensible 
step, and so too was curbing carbon emissions from the power 
sector under the Clean Power Plan.
    In fact, the reductions required by the Clean Power Plan 
were so reasonable that most of the power sector is now meeting 
them. And, yet, the Trump administration has methodically 
stalled or rolled back all these initiatives.
    The administration's actions reflect a determination to 
lock in fossil fuel dependence for consumers, reversing 
meaningful progress and setting the planet on a dangerous 
course.
    The good news is that the rest of world and many States, 
cities, and businesses here in the United States have rejected 
the Trump administration's retreat on climate change.
    They have declared, ``We are still in.'' They are leading 
the way to cleaner energy, greater energy efficiency, lower 
consumer costs, more resilient communities, and new 
technologies and business.
    While each individual contribution by these non-Federal 
actors may be small, together they add up to significant 
emission reductions and, just as importantly, their experience 
lays the foundation for future progress.
    I am going to sum up by saying the time for action to avoid 
the worst effects of climate change is growing short, but at a 
minimum, the U.S. must fulfill its commitments that we made in 
the Paris Agreement.
    And the Federal Government shouldn't just stand on the 
sidelines. We have to show we are still committed to the global 
agreement.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I want to thank Chairman Tonko for scheduling this 
hearing--as the committee continues to discuss the growing 
crisis of climate change, and the ways that we can combat it. 
For the last 2 years President Trump, his administration and 
Republicans here in Congress have repeatedly pushed actions and 
policies that would only make the crisis worse.
    We are here today to discuss one of those actions. 
President Trump's decision to pull out of the Paris Agreement 
is unjustified and dangerously shortsighted. It abdicates U.S. 
leadership on global climate action--an issue where America has 
always been a leader--and breaks our promise to all nations who 
joined the historic agreement. I believe the Trump 
administration's retreat puts the health and safety of our 
communities at great risk, and seriously jeopardizes our future 
security. It also puts our economic future at great risk as the 
world embarks on a major transition to a low-carbon economy. 
President Trump now wants to pull us out of that agreement.
    The Paris Agreement -an agreement reached by nearly 200 
nations--was an important, unified stand in the fight against 
our changing climate. It sets a strong foundation for action 
that will accelerate the shift to a clean energy economy, and 
puts us on the path to a safer, healthier planet for 
generations to come. It is also our best hope of mobilizing the 
global action needed to avoid catastrophic changes to our 
environment.
    The Paris Agreement represents a significant departure from 
past efforts to secure international cooperation on climate 
change. It allows each nation to design its own emission 
reduction strategy -that is best suited to the unique 
circumstances of its society and economy. Importantly, the 
Paris Agreement applies to all parties to the Convention -
including India and China. It also includes critical 
transparency and accountability measures, to ensure countries 
are meeting their emissions reduction goals and have the 
flexibility to make any necessary adjustments to stay on track.
    The Obama administration's plan to meet the goals of this 
agreement were reasonable, achievable and balanced. It provided 
a framework in reducing U.S. emissions, while also growing our 
economy. More energy efficient appliances, buildings and 
vehicles result in lower costs for consumers and keep our 
manufacturing industries competitive globally, all while 
lowering emissions of harmful air pollutants.
    The plan also called for controlling methane emissions from 
the oil and gas sector, which was a long-overdue and sensible 
step. So too was curbing carbon emissions from the power sector 
under the Clean Power Plan. In fact, the reductions required by 
the Clean Power Plan were so reasonable that most of the power 
sector is now meeting them.
    Yet, the Trump administration has methodically stalled or 
rolled back all these initiatives. This administration's 
actions reflect a determination to lock-in fossil fuel 
dependence for consumers, reversing meaningful progress and 
setting the planet on a dangerous course.
    The good news is that the rest of world and many States, 
cities, and businesses here in the United States have rejected 
the Trump administration's retreat on climate change. They have 
declared: ``We are still in.'' They are leading the way to 
cleaner energy, greater energy efficiency, lower consumer 
costs, more resilient communities, and new technologies and 
businesses.
    While each individual contribution by these non-Federal 
actors may be small, together they add up to significant 
emission reductions. And, just as important, their experience 
lays the foundation for further progress. But make no mistake, 
meaningful future climate action needs Federal leadership to be 
successful. We cannot assume State, local, and private-sector 
initiatives will be enough to effectively limit global 
temperature increases.
    We have the tools and technology to replace fossil fuel 
dominance with clean energy, but we need to deploy them faster. 
But, we will also need new technologies and infrastructure to 
achieve the deeper de-carbonization of the economy that will 
ensure our long-term safety and prosperity. We have a lot of 
work to do.
    The time for action to avoid the worst effects of climate 
change is growing short, but we still have time to act. At a 
minimum, the Unites States must fulfill the commitments we made 
to the world in the Paris Agreement. The Federal Government 
simply cannot stand on the sidelines--we must show that we are 
still committed to this global agreement.

    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Tonko. And Chairman Pallone yields back.
    OK. The Chair now recognizes Mr. Walden, Republican leader 
of the full committee, for 5 minutes for his opening statement.
    Mr. Walden?

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, my friend. Thanks for having this 
hearing as well. I think it is important to point out a couple 
of things right out of the gate.
    The U.S. is still a part of the Paris Agreements--Paris 
Accords--and will be until 2020. The Trump administration 
negotiators were credited recently with helping forge a 
multinational agreement on how to measure emissions so that all 
countries that are involved would have some higher level of 
confidence that each other were actually reducing the emissions 
they said they were and they got international credit for that.
    I think part of what we are after is, again, pursuing an 
agenda of U.S. innovation, conservation, adaptation, and 
preparation. We can lead the world in this space and we should. 
We just don't want to repeat the mistakes that others have made 
in their laboratory work, if you will, trying to tackle this 
issue.
    They have had riots on the streets in France since November 
as consumers said the direction France went with the high cost 
of gasoline was more than they were willing to bear. We need to 
keep consumers in mind in this discussion.
    We are ready to work on developing policies, in fact, I 
would say, build on the policies that we developed over the 
last several Congresses in this space to make sure that we have 
an electric grid that is reliable and secure and has the 
capacity to be able to feed into renewable energy.
    We have been big advocates for battery storage enhancement 
and, indeed, in my district there is a partnership between 
NextEra and PGE to have one of the biggest battery storage 
energy sectors in the United States. It is the biggest, it is 
the first, and they will link renewable energy into battery 
storage to help bring more firm baseload power to the grid. 
That will replace energy now generated from coal.
    Our country invests in these national labs that help 
develop this technology, and there is more work to be done 
there. You know, we have learned over the years how these 
policies rapidly transform the Nation's electricity system from 
a system designed for the economical and reliably dispatch of 
power to a system focused on meeting Federal emissions caps can 
have unintended consequences.
    This rapid transformation, which Congress opposed, would 
have driven out major sources of affordable energy, threatened 
reliability and security, and driven up consumer electricity 
bills.
    To achieve the goals, I think we could all find some common 
ground along. We also have to make sure that we don't encourage 
unintended consequences that could affect consumers negatively 
to the point that they riot in the streets, as they are doing 
in France, as well as put the grid in peril.
    We learned that even with the economically harmful impact 
of these and other policies targeting the fuels we use and cars 
we drive, the goals proposed by the Paris Agreement still could 
not be met.
    The policies, according to the administration's own 
estimates, would get maybe 60 percent of the way there, and I 
am talking about the Obama administration now.
    Even Secretary Kerry noted at the time of the negotiations 
that, if the United States or even all the developed world cut 
their CO<INF>2</INF> emissions to zero, it would still not 
offset the emissions coming from the rest of the world.
    So, again, we can be a leader in developing new 
technologies that we should sell to the rest of the world to 
reduce their emissions. We have got to be smart about how we do 
this.
    In short, commitments in Paris were made without a clear 
plan to meet those promises, without a full view of the cost, 
and certainly not a plan that had broad bipartisan support in 
Congress.
    That is what we would like to see developed here, Mr. 
Chairman, is a bipartisan plan, going forward. This focus on 
U.S. commitments to the Paris Agreement is the centerpiece for 
our Nation's climate policy. It kind of misses the point of 
what we should focus on if we want to make a difference in 
global emissions while strengthening the economy.
    We should not lock ourselves into a narrow vision of what 
is possible. We must consider the realities of global energy 
systems and the need for affordable reliable energy access 
around the world.
    We are fortunate in America to have electrified nearly 
every home and business in the country. There are many parts of 
the world that seek electricity for the first time. They will 
not be denied that. So let us work with them to figure out how 
to do it in an environmentally sensitive way.
    Let us continue to work, as we have done in past 
Congresses, to reduce barriers to innovation, enable the United 
States to deploy new technologies to drive economic engines of 
the future and make realistic headway in curbing emissions from 
advanced carbon capture to nuclear technology to innovative 
hydropower solutions.
    And we also have to look at things I care passionately 
about in my district in Oregon. The IPCC report going back to 
2007 says sustainable forest management would help. We had 68 
million tons of carbon emissions for the fires in California 
last year alone.
    Now, not all those are forests--I get that--but there is a 
lot of work that has been pointed out we could do to reduce the 
excess fuel load in our forests that reduce emissions of more 
than just carbon--the other poisons that go up at the time--if 
we could come together in a bipartisan way on that.
    So, Mr. Chairman, I look forward to working with you as we 
always do and thank you for having this hearing, and I yield 
back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Mr. Chairman. I was struck by the title of this 
hearing. For the past six months Paris has seen continuous 
protests that began over ill-conceived policies designed to 
meet obligations under the Paris Agreement. Regular people are 
taking to the streets to oppose heavy handed regulation and 
taxation that threatened economic prosperity and cripple their 
ability to provide for their loved ones. So, I am not sure if 
the title was intentional but we should remember Paris and the 
Yellow Vests when debating policies that have real, every day 
impacts on hard working Americans.
    As you know, Republicans are ready and willing to work with 
you on policies to address climate change risks. We have a 
growing record of bipartisan legislation in this area that is 
helping to drive implementation of cleaner technologies-and 
more can be done. But we should all be wary of resurrecting 
policies that are economically and technologically unworkable 
for the American public.
    A central theme of today's hearing concerns actions that 
will help the Nation meet the U.S. commitments in the Paris 
Agreement under the U.N. Framework Convention on Climate 
Change. Some of these actions, on their own merits, may be 
worth additional examination and I look forward to hearing from 
the witnesses about them.
    However, we should not forget the serious questions 
concerning costs, effectiveness, and feasibility of the U.S. 
commitments made by the Obama administration under the Paris 
Agreement 3 years ago.
    In a number of committee hearings in the runup to the Paris 
negotiations, we examined closely the costs and impacts of the 
Clean Power Plan and related EPA standards that were the 
central policy for electric sector emissions reductions.
    We learned how these policies sought to rapidly transform 
the Nation's electricity system--from a system designed for the 
economical and reliable dispatch of power to a system focused 
on meeting Federal emission caps. This radical transformation, 
which Congress opposed, would have driven out major sources of 
affordable energy, threatened reliability and security, and 
driven up consumer utility bills.
    We learned that, even with the economically harmful impact 
of these and other policies targeting the fuels we use and cars 
we drive, the goals proposed for the Paris Agreement still 
could not be met. The policies, according to the 
administration's own estimates, could get maybe 60 percent of 
the way there. Even Secretary of State Kerry noted during the 
Paris negotiations that if the United States, or even all of 
the developed world, cut their CO<INF>2</INF> emissions to 
zero, it would still not offset the emissions coming from the 
rest of the world.\1\
---------------------------------------------------------------------------
    \1\ Secretary Kerry stated: ``The fact is, even if every single 
American biked to work or carpooled to school, and used only solar 
panels to power their homes--if we each planted a dozen trees--if we 
somehow eliminated all of our domestic greenhouse gas emissions--guess 
what? That still wouldn't be enough to offset the carbon pollution 
coming from the rest of the world. If all industrialized nations went 
down to zero emissions, it wouldn't be enough--not when more than 65 
percent of the world's carbon pollution comes from the developing 
world. No matter how much half the world does to clean up its act--if 
similar steps aren't taken by the rest of the world, the Earth still 
has a problem.''
---------------------------------------------------------------------------
    In short, commitments in Paris were made without a clear 
plan to meet those promises, without a full view of the costs, 
and certainly not a plan that had broad bipartisan support of 
Congress.
    This focus on U.S. commitments in the Paris Agreement as a 
centerpiece of our Nation's climate policy misses the point on 
what we should focus on if we want to make a difference in 
global emissions while strengthening our economy.
    We should not lock ourselves in to a narrow vision of what 
is possible. We must consider the realities of global energy 
systems and the need for affordable, reliable energy access 
around the world.
    Let's continue the work we have been doing in the past few 
Congresses that will reduce the barriers to innovation and 
enable the United States to deploy new technologies to drive 
our economic engines of the future and make realistic headway 
in curbing emissions, from advanced carbon capture to nuclear 
technology to innovative hydropower.
    We must also improve forest management to reduce the risk 
of catastrophic wildfires that choke communities in Oregon with 
smoke and fill our atmosphere with untold pollutants. Better 
managing our forests reduces the risk of these catastrophic 
fires and the toxic emissions they put into the atmosphere. The 
Intergovernmental Panel on Climate Change found that 
sustainably managing our forests will create the longest 
sustained carbon mitigation benefit. Congress should follow the 
science on forest management.
    As we've said before, we are ready to begin the process of 
finding commonsense, bipartisan solutions to climate change. 
Instead of extreme agendas like the Green New Deal or looking 
backwards to unworkable policies that increase energy costs, 
limit innovation, and stifle economic growth, we should focus 
on the proven success demonstrated in the tremendous 
economical, security, and environmental benefits created 
through America's energy innovation over the past decade.
    We want America's innovators to continue to develop the 
next technologies that will improve the environment and create 
jobs here at home. We want a healthy environment for our 
children, and future generations. We want our constituents and 
all Americans to have jobs and the opportunity to provide for 
their families. These are not mutually exclusive principles, 
and they are embedded in our approach to confronting climate 
risks. Let us work on them together.

    Mr. Tonko. Thank you, and the Republican leader yields 
back.
    As Chair, I remind Members that, pursuant to committee 
rules, all Members' written opening statements shall be made 
part of the record.
    Now we welcome the witnesses to this subcommittee hearing. 
I thank them for taking the time and sharing their intellect 
with us.
    Let me introduce our panel. First, we have Ms. Carla 
Frisch, principal with the Rocky Mountain Institute; then Mr. 
Samuel Thornstrom--Thernstrom, I am sorry--chief executive 
officer of the Energy and Innovation Reform Project; Mr. Nathan 
Hultman, director of the Center for Global Sustainability, 
associate professor at the University of Maryland School of 
Public Policy; and Mr. Andrew Light, distinguished senior 
fellow, World Resources Institute.
    We thank, again, all of our witnesses for joining us today. 
We look forward to your testimony and thank you for sharing 
time with the subcommittee.
    At this time, I will now recognize each witness for 5 
minutes to provide his or her opening statement. Before we 
begin, I would like to explain the lighting system. In front of 
our witnesses is a series of lights.
    The light will initially be green at the start of your 
opening statement. The light will turn yellow when you have 1 
minute left. Please begin to wrap up your testimony at that 
point and the light will turn red when your time has expired.
    So we will begin with Ms. Frisch. You are recognized for 5 
minutes, and welcome.

     STATEMENTS OF CARLA FRISCH, PRINCIPAL, ROCKY MOUNTAIN 
   INSTITUTE; SAMUEL THERNSTROM, FOUNDER AND CHIEF EXECUTIVE 
 OFFICER, ENERGY INNOVATION REFORM PROJECT; NATHAN E. HULTMAN, 
 PH.D., DIRECTOR, CENTER FOR GLOBAL SUSTAINABILITY, SCHOOL OF 
  PUBLIC POLICY, UNIVERSITY OF MARYLAND; ANDREW LIGHT, PH.D., 
     DISTINGUISHED SENIOR FELLOW, WORLD RESOURCE INSTITUTE

                   STATEMENT OF CARLA FRISCH

    Ms. Frisch. Thank you, Chairman Tonko, Ranking Member 
Shimkus, and members of the subcommittee for inviting me to 
testify and for your leadership in focusing on climate change.
    I am a principal at the nonprofit nonpartisan Rocky 
Mountain Institute, where we work on market-based low-carbon 
solutions.
    Cities, States, and businesses and others have been working 
to address climate and the environment for decades. But in the 
past 2 years, they have scaled up their efforts and come 
together more formally and, in part, that connects back to the 
announcement of the intent to leave the Paris Agreement.
    Within 72 hours from that announcement, a very diverse 
coalition of over 1,200 States, cities, businesses, 
universities, counties, Tribes, faith-based organizations, 
hospitals, and others came together, and today that coalition 
is more than 3,600 members.
    Their leaders have committed to reduce their emissions, not 
only because it is good for the climate but because it advances 
the interests of their citizens, their consumers, and their 
shareholders.
    Are these commitments meaningful? America's Pledge set out 
to find that out. Rocky Mountain Institute worked on analysis 
which found that given existing commitments, the U.S. is, 
roughly, two-thirds of the way towards meeting the original 
commitment in Paris and broader engagement has the potential to 
put us within striking distance of the Paris Agreement.
    That means scaling high-impact near-term climate 
strategies. But even since we published the report progress has 
been made. In the last three weeks alone, five gigawatts of 
coal retirements have been announced, and also in the 
electricity space more than 100 companies, including many 
Fortune 500 companies, have committed to 100 percent renewable 
energy and they are following through on those commitments and 
taking advantage of the lower technology costs of solar and 
wind, which continue to fall. Cities are doing that, too.
    That clean electricity is powering clean electric 
transportation. Late last year, we passed the 1 million 
electric vehicles sold mark in the U.S. and sales have grown 
since then, and one-third of our public buses are on track to 
become emissions-free, which could significantly improve health 
and air quality and also reduce costs for transit authorities, 
and that in part is driven by lower battery costs, as Ranking 
Member Walden mentioned.
    That clean electricity is also powering homes and 
businesses. Using electricity to heat our homes and water is 
more efficient than using natural gas and burning that natural 
gas directly on site.
    It improves indoor air quality and it reduces greenhouse 
gas emissions. And acknowledging that potential, New York State 
has required their electric utilities achieve a portion of 
their energy efficiency savings through deployment of efficient 
electric heat pumps.
    So if we continue to scale and focus on these two 
priorities, rapidly cleaning up electricity production and 
using that clean electricity in our homes, businesses, and 
transportation systems, we could address up to 70 percent of 
U.S. greenhouse gas emissions.
    And the Nation's rural electric co-ops have taken notice of 
that, and they are moving forward to focus on cost-effective 
beneficial electrification. States that have taken climate 
actions like these find that they are benefitting their 
economies and strengthening their community.
    Through the bipartisan U.S. Climate Alliance 21 Governors 
have come together to lead on climate change including many 
recently elected Governors. Their climate policies have 
attracted billions in investment and have helped support more 
than 1.6 million clean-energy and energy-efficiency jobs.
    Together, coalitions like these are demonstrating in real 
time how to deliver cost-effective climate action from the 
ground up.
    Despite this tremendous progress, we need faster action. To 
avoid the worst impacts of climate change and get back on track 
for IPCC, we need action from all levels of government and 
participation from civil society.
    It is not possible to solve the climate crisis without 
State, city, and business action. It is also not possible to 
solve the climate crisis without strong and sustained Federal 
policy.
    The good news is we don't have to start from scratch at the 
Federal level. Federal reengagement can build on the great 
momentum and hard work that States, cities, and businesses have 
underway.
    We have to have both to ensure that America continues to 
set the standard for international leadership.
    [The prepared statement of Ms. Frisch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. Thank you, Ms. Frisch.
    Next, we will move to Mr. Thernstrom. You are recognized, 
sir, for 5 minutes.

                 STATEMENT OF SAMUEL THERNSTROM

    Mr. Thernstrom. I would like to thank the chairman, the 
ranking member, and members of this subcommittee for the 
opportunity to speak on behalf of the Energy Innovation Reform 
Project.
    The EIRP promotes public policies to accelerate the 
development of advanced energy technologies to improve the 
affordability, reliability, safety, and security of America's 
energy supplies and our energy economy.
    As Mr. Tonko and Mr. Walden both noted, President Trump 
announced in June 2017 his intent to withdraw the U.S. from 
Paris, but for procedural reasons the U.S. withdrawal cannot 
take effect until November of 2020. So we are still in.
    Whether one agrees or not with the President's decision, he 
does have the authority to make it, and I tend to see his 
decision as a reflection of the challenges in climate policy 
that Paris tried to paper over. Resolving these challenges 
should be the focus of our attention, and I think a number of 
remarks today have already indicated that.
    Our central challenge is that effective mitigation depends 
upon the availability of commercially competitive clean energy 
technologies more than it requires treaties or other 
international agreements.
    We are making great progress with this challenge, as other 
witnesses will testify to, but much more remains to be done. If 
we can develop these technologies, international agreements can 
constructively contribute to their global dissemination.
    If we do not develop them, nations are unlikely to meet 
commitments made under international agreements and, in fact, 
many nations are not on track to meet their Paris pledges, 
suggesting that their ambitions exceed their abilities.
    Aspirational international agreements may reflect worthy 
ambitions. But domestic policy is where the decisive decisions 
are made. Paris appropriately focused international attention 
on each nation's domestic actions and that is where a 
constructive conversation must occur.
    Ultimately, the Paris Agreement was unworkable for the U.S. 
because it was a substitute for, rather than the product of, a 
domestic political consensus. Indeed, the lack of settled 
domestic U.S. policy was among the reasons that Paris was an 
agreement rather than a treaty.
    Trying to make domestic policy in Paris rather than in 
Washington was a mistake, I believe. It circumvented the role 
of Congress and specifically ignored the importance of 
implementing legislation and ensuring alignment between 
America's domestic policy and our international commitments.
    America cannot address a complex challenge like climate 
change without bipartisan agreement on the way forward that is 
enacted in Federal law.
    After climate legislation failed in the Senate in 2009, the 
Obama administration pursued its domestic policy goal through 
the Clean Power Plan which was stayed by the Supreme Court. The 
Trump administration is seeking to implement an alternative 
regulation, which will certainly face judicial scrutiny of its 
own.
    This back and forth demonstrates the fragility of policy 
made through regulations rather than law just as agreements are 
poor substitutes for treaties.
    Now, many climate advocates have despaired of enacting 
bipartisan legislation and have consequently sought 
alternatives. At EIRP, we believe that there is no substitute 
for sound national policy embodied in law and so we work to 
promote that.
    The principal objective of Federal climate legislation 
should be to promote innovation in a broad portfolio of clean 
energy-related technologies and ensure their economical use 
over time.
    A focus on accelerating technology innovation in order to 
drive down the cost of decarbonization while avoiding the zero-
sum politics of some popular climate proposals is a necessary 
first step.
    As a complement to innovation policies, clear and durable 
environmental regulations would also permit innovators and 
investors to cost effectively modernize America's energy 
system. I do want to emphasize the importance of getting the 
relationship between public policy and the private sector 
right.
    This will require a mix of regulatory reforms and public 
and private investments that must be appropriate to the 
complexity of the task, not the product of a formulaic or 
ideological approach.
    Also, as my written testimony emphasizes, the 
decarbonization literature is very clear about the crucial 
importance of developing a diverse mix of energy technologies 
and resources rather than taking a narrow path that relies on 
renewables alone.
    Innovation initiatives must be designed to produce clean 
energy that is both abundant and affordable. If clean energy is 
too expensive or impractical in other respects, it won't be 
used broadly or adopted sufficiently rapidly.
    Our challenge today is to combat climate change in a manner 
that strengthens America, our economy, and our international 
leadership.
    At EIRP, we believe that Federal policies to accelerate 
energy innovation will be essential to pursuing those goals 
harmoniously.
    Thank you all very much for your time.
    [The prepared statement of Mr. Thernstrom follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. Thank you, Mr. Thernstrom.
    And now we will move to Mr. Hultman. Mr. Hultman, you are 
recognized for 5 minutes.
    Thank you.

                 STATEMENT OF NATHAN E. HULTMAN

    Dr. Hultman. Thank you, Chairman Tonko, Ranking Member 
Shimkus, and members of the subcommittee for inviting me to 
testify here today on the essential role of subnational actors 
in an overall comprehensive strategy to set American climate 
policy on a path toward renewed and reinvigorated leadership.
    I am the director of the Center for Global Sustainability 
at the University of Maryland School of Public Policy and 
served as a lead author on the recent report, ``Fulfilling 
America's Pledge: How States, Cities, and Businesses Are 
Leading the United States to a Low-Carbon Future.''
    It is an honor to share with the committee my perspective 
on how subnational efforts in our country are driving progress 
today and laying the groundwork for an effective comprehensive 
American strategy to address climate and economic issues of 
fundamental importance to our country.
    My message today is in three parts. The first part answers 
the essential question of what does it all add up to and 
describes the significant impact resulting from accelerating 
subnational climate actions in our country.
    The second part illustrates how these actions can provide a 
path to comprehensive American climate strategy that includes 
diverse subnational actors as a basis to support and enhance 
additional progress through new Federal action.
    The third part underscores how subnational American 
leadership combined with a reinvigorated Federal engagement can 
catalyze global action to accelerate our ability to respond 
effectively to the climate crisis.
    In recent years, coalitions of subnational actors have 
formed to enhance their own communities' interest in climate 
action. These coalitions represent well over half the U.S. 
population of over 173 million people and nearly 60 percent of 
U.S. GDP and they are globally significant, representing the 
equivalent of the world's third largest economy and the world's 
fourth largest greenhouse gas emitter.
    A key question, however, is whether these actions from 
these groups will make a difference. The answer is yes. Our 
study estimates that existing commitments from subnational 
actors are already making a significant impact with additional 
near-term reductions possible.
    Without these subnational actions, we estimate that U.S. 
emissions would grow slightly between now and 2025 and it is in 
this context that the contribution from subnational actors 
today is so important, turning that potential 3 percent growth 
in emissions from today into a 17 percent reduction below 2005 
levels by 2025.
    And more is possible. Using the tools available to them 
today, States, cities, and businesses could drive U.S. 
emissions close to but not quite reaching the U.S.-Paris target 
to, roughly, 24 percent below 2005 levels by 2025. Such actions 
could include more rapid expansion of renewables, reductions in 
methane leakage, increased building energy efficiency, 
accelerated coal power retirements, land sector policies, and a 
variety of other approaches across sectors.
    And, indeed, many of these actors are already stepping up 
to do more, particularly after the recently mid-term elections.
    So existing commitments are extraordinarily helpful, making 
a real and meaningful difference today during a period of 
Federal inaction. Nevertheless, even additional subnational 
commitments will likely not be sufficient to get us fully on 
track towards a long-term trajectory consistent with science-
driven climate goals if this work of subnational actors to 
implement more ambitious climate actions does provide a basis 
for accelerating economy wide climate action in the future.
    For example, subnational actions could potentially deliver 
accelerating emissions reductions across the U.S. economy, 
increasing our decarbonization rate from, roughly, 1.6 percent 
per year before 2025 to, roughly, 2.1 percent per year 
thereafter.
    This rate is close to the, roughly, 2.3 percent annually 
needed to be consistent with long-term climate goals. But the 
key currently missing boost to this activity would be broad 
engagement by the U.S. Federal Government.
    In this way, subnational actions are laying the groundwork 
today for faster action under an essential comprehensive 
approach that integrates the significant policy authorities 
across our Federal system.
    Subnational action can also impact climate outcomes by 
influencing the international community. In climate change, 
U.S. global leadership matters. We are the world's second 
largest emitter and what we do here in many ways sets the tone 
for the level of climate action globally and this, in turn, can 
raise the chances of our global success in addressing this 
immediate and growing challenge.
    The fact that American subnational actors are still making 
significant progress in reducing our own emissions is an 
important signal to other countries that the U.S. is still 
remaining engaged and delivering real change.
    In summary, we have seen a groundswell of climate action 
over recent years with leadership from all corners of America. 
In doing so, these States, cities, businesses, and others have 
also helped create the conditions for a strong Federal answer 
to their own climate leadership.
    Thank you.
    [The prepared statement of Dr. Hultman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. Thank you, Mr. Hultman.
    And now to conclude, Mr. Light, you are recognized for 5 
minutes.
    Thank you.

                   STATEMENT OF ANDREW LIGHT

    Dr. Light. Thank you, Chairman Tonko, Ranking Member 
Shimkus, and the members of the subcommittee for inviting me to 
testify.
    I am Andrew Light from the World Resources Institute and 
also from George Mason University. I will address the 
international implications and limits of U.S. non-Federal 
action on climate change.
    I previously served at the Department of State as one of 
the senior officials working on the creation of the Paris 
Agreement on climate change. I am going to touch on four points 
summarized from my written testimony.
    One, the Paris Agreement remains essential for 
international cooperation on climate change. Two, other 
countries continue to take ambitious steps to reduce their 
emissions. Three, efforts by non-Federal actors have been 
embraced internationally. However, fourth, reengagement by the 
Federal Government is a geopolitical necessity.
    First, let us start with Paris. While President Trump has 
announced his intention to withdraw from the agreement, over 
190 countries are still actively working to implement the 
agreement's goals.
    And I agree with your characterization, Chairman Tonko. 
These targets were all done in-country. They were nationally 
determined. They were not negotiated in Paris. They were not 
determined by the Paris Agreement. That is very important.
    Paris is a success because part--because the first set of 
commitments under it achieved higher than expected ambition, 
significantly improving projections of temperature savings over 
prior estimates.
    Moreover, parties are expected to make continual pledges of 
increasing ambition over time to put the temperature goals of 
the agreement within reach.
    Second, the agreement fulfills a long-sought goal of the 
last three presidential administrations, both Republican and 
Democratic, of creating a set of common rules for all parties 
on reporting transparency and review of their progress on 
meeting their targets regardless of their development status.
    So what about progress in other countries? I am going to 
focus here on China and India because concerns about them were 
raised in recent hearings before this subcommittee.
    Both will need to do more. But under Paris, they are 
demonstrating ample domestic ambition. China is leading the 
world in renewable energy investment, committing to spend over 
$360 billion through 2020, which is expected to create 13 
million new jobs.
    China launched a national emissions trading system for its 
power sector, which will eventually become the largest in the 
world. In 2017, the government halted or delayed over 150 coal 
plants.
    China remains the world's largest emitter of carbon dioxide 
but committed under Paris to peak emissions by 2030 at the 
latest and experts argue that they could easily peak as early 
as 2025.
    India's Paris targets include a goal of 40 percent 
electricity generation from nonfossil sources by 2030. Prior to 
setting these target, Prime Minister Modi increased the 
previous government's solar energy goal by himself by five 
times to 100 gigawatts by 2022, adding 75 gigawatts of wind, 
biomass, and small hydro, creating an estimated 330,000 new 
jobs.
    The number of planned coal plants has plummeted, shrinking 
by a quarter in the first half of 2018. What about the 
international impact of U.S. subnational action, which we have 
heard about so far?
    The groundswell of activity in the U.S. has been widely 
embraced. German Chancellor Angela Merkel commented that it 
emphasizes the support for the climate agreement across large 
parts of the United States.
    It is also spurring similar subnational coalitions abroad, 
including in Japan. States have also increased their bilateral 
programs. California initiated programs to work with China on 
developing renewable energy and cooperating on zero-emissions 
vehicles, energy storage, and grid modernization while the U.S. 
stayed on the sidelines.
    But there are limits to subnational action that require 
Federal reengagement. Here are three reasons.
    First, U.S. Federal leadership is absolutely necessary as 
States and cities don't have a seat at the table in 
international negotiations. Active participation is essential 
to ensure that the Paris Agreement maintains elements that we 
value, including maintaining the integrity of the currently 
agreed-upon rules.
    Secondly, States and cities do not have the capacity to 
help prepare our strategic partners abroad for climate risks 
threatening their safety which, in turn, threatens the American 
people.
    Make no mistake--climate-related security risks are 
happening right now and they are getting worse. This conclusion 
was unequivocal in last month's worldwide threat assessment of 
the U.S. intelligence community.
    Third, States and cities can't put sufficient pressure on 
larger countries to embrace climate smart foreign development. 
Take, for example, China's massive Belt and Road infrastructure 
project worth $6 trillion that include 70 countries on three 
continents.
    It is, roughly, 46 times as large as the Marshall Plan. 
Despite their domestic progress at home, from 2014 to 2017 93 
percent of energy investments by China's Silk Road Fund and 95 
percent of foreign energy investment by China's state-owned 
enterprises were in fossil fuels.
    The U.S. is not challenging China, given President Trump's 
commitment to fossil fuels. No other countries can exert 
pressure on China. This gap requires Federal reengagement in 
Paris and in broader international climate efforts.
    Let me close with a few suggestions to what Congress can do 
to get the U.S. back into the international climate arena.
    First, pass a resolution to support the Paris Agreement 
that also explicitly supports current subnational action.
    Second, double funding for clean energy and carbon removal 
RD&D to catch up with China and make sure the money that you 
have allocated is being spent.
    And finally, for fiscal year 2019 you increase bilateral 
environmental assistance to $776 million from $400 million. 
These funds should be spent to help prepare countries for 
climate change so that we can work together to create a safer 
and more resilient world.
    Thank you. I look forward to your questions.
    [The prepared statement of Dr. Light follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. Thank you, Mr. Light.
    We now have concluded with opening statements and now move 
to Member questions. Each Member will have 5 minutes to ask 
questions of our witnesses, and I will start by recognizing 
myself for 5 minutes.
    Many of my colleagues will want to discuss subnational 
commitments, but I would like to start with some basics of the 
agreement.
    Dr. Light, I just want to clearly state what I believe I 
heard you say in your just-delivered statement. Do you agree 
that the United States and all other parties to the agreement 
made voluntary mitigation contributions?
    Dr. Light. Yes, sir.
    Mr. Tonko. So with that being said, when President Trump 
talks about imposing draconian burdens on our country, is that 
a fair criticism of the agreement itself?
    Dr. Light. It is absolutely false, sir. I was at the table 
when the agreement was being negotiated. There were no 
draconian burdens that were put on the United States or any 
other country.
    Mr. Tonko. So then this is not a U.N. mandate that 
undermines our sovereignty?
    Dr. Light. Not at all.
    Mr. Tonko. Our mitigation commitment was submitted based on 
existing and planned United States policy. Is that correct?
    Dr. Light. Yes, sir.
    Mr. Tonko. And, Dr. Light, one of the biggest achievements 
of the agreement is the inclusion of large developing nations 
such as China and India. Can you explain their commitments and 
how they were brought to the table?
    Dr. Light. Well, I think I sort of gave you a little bit of 
an overview of what China and India are doing right now and we 
can talk about, you know, what's going on in terms of emissions 
recently with those countries and the United States.
    But how they were brought to the table was a very 
interesting story. The United States and China had historically 
been the biggest adversaries in this process.
    So if you go back decades to the original creation of the 
framework convention in 1992, it was just an incredible fight 
between large blocks of countries, mostly developed countries 
on the one side, developing countries on the other side.
    The developing countries said, you caused the problem, 
essentially applying a kind of ``polluter pays'' mentality. It 
is your responsibility to solve it. We shouldn't be required to 
do anything.
    But that is just not viable, as Representative Walden said. 
You can't reduce emissions sufficiently only on the backs of 
developed countries because the bulk of emissions now are from 
developing countries. We tried with different measures to move 
forward on this. But we could never get sufficient 
participation from these other countries to move forward.
    The Kyoto Protocol, for example, only had the participation 
in terms of obligations to reduce emissions from less than 20 
percent of emissions globally from the countries that had to 
reduce their emissions.
    The Paris Agreement--the countries that are committed to 
the Paris Agreement now, until the U.S. leaves, covers 96 
percent of global emissions. We worked with China behind the 
scenes for over a year to make sure that we could bring them to 
the table, that we would only stand next to them, as President 
Obama did in November of 2014, with President Xi in Beijing--we 
would only stand with them and while they were announcing the 
top lines of their target if we thought their target was 
respectable, and they did the same with us. And that created a 
race to the top that brought countries along.
    India is another story. Prime Minister Modi has long been a 
climate champion, and what we did is we took--looked at his 
domestic desire to try to move his country forward on a more 
sustainable path. By himself he increased his own renewable 
energy targets and then we worked with the Indian government to 
make sure that their platform could be used to advance other 
research and innovation programs that they wanted to create.
    Mr. Tonko. Thank you for highlighting that.
    Because these countries are in a different stage in their 
development their time line may be longer than ours. But it is 
clear that they are committed to taking action and pursuing 
more sustainable development.
    How is China working forward? Are they still on track to 
peak with its emissions around 2030?
    Dr. Light. That--no, sir. I believe they are actually going 
to peak quite earlier than that. I mean, all estimate evidence 
to date is that they will peak earlier.
    They did have a 3 percent uptick in their emissions as far 
as we can tell in 2018. The U.S. emissions also went up 3.4 
percent in the same time period.
    But there is lots of explanations for this having to do 
with some stimulus in the Chinese economy--for example, a huge 
boom in construction to try to create more apartments for 
people, which are--20 percent of them are actually going empty 
right now.
    So there have been things like that that have moved along. 
But if you look at the scale of Chinese emissions, it really 
precipitously goes down as we get closer to the creation of the 
Paris Agreement because that is when international pressure is 
there. That is when the Chinese are starting to recognize that 
they have a geopolitical advantage by becoming leaders on this 
issue. The small countries--small island states--are just as 
worried about China as they are worried about the emissions 
coming from the United States. All those emissions are going to 
cause sea level rise. They are going to harm them.
    And so what we have seen is the Chinese respond to that. 
But, as I said at the end of my testimony, there is a worry 
here that the Chinese could still move forward with respect to 
building out coal facilities in other countries unless someone 
tries to pull them back to the table. No other country can do 
that other than the United States.
    Mr. Tonko. Thank you.
    Are there any other common misconceptions about the 
agreement that you would like to clarify in a relative few 
questions?
    Dr. Light. Sure. One thing, and that is this. I have 
heard--I understand the criticism that the current pledges 
under the Paris Agreement--right now that parties are behind. 
They don't--aren't sufficient to meet the 2 degrees Celsius 
goal, let alone the goal of the agreement to try to even get 
lower--get lower temperature response like 1.5 degrees.
    We have to keep in mind that Paris was created as a 
process. It is not just one shot, you make your pledge, and we 
are done and we see how good we do.
    It sets up a process so that parties have to come back to 
the table at regular intervals to make regular new commitments 
of increased ambition. That is going to be what is going to 
help us to close the gap that some of you have articulated in 
your opening statements.
    Mr. Tonko. Thank you. Thank you, Dr. Light.
    I now recognize Leader Shimkus for 5 minutes to ask 
questions.
    Mr. Shimkus. Thank you, Mr. Chairman. Thank you all for 
being here.
    Mr. Light, I appreciate your passion and, Mr. Hultman, I am 
a believer in subnational activities. We are federalists, 
especially on this side, and we believe in local control, local 
government, and we want to keep encouraging those who want to 
go in a direction.
    But let me ask this question: What is--first of all, it can 
be a short response--what is more binding, a treaty or an 
agreement?
    Ms. Frisch?
    A treaty. Constitutionally, it is really, there's no--Mr. 
Thernstrom?
    Mr. Thernstrom. A treaty.
    Mr. Shimkus. Treaty.
    Mr. Hultman?
    Dr. Hultman. Both a treaty and agreement have authority 
under international law, and the Paris Agreement is something 
that we can use to accomplish the goals----
    Mr. Shimkus. OK. But for us and our Constitution and our 
government, which is more binding? Which has political buy-in? 
Which is vetted by the legislative branch?
    Dr. Hultman. The Paris Agreement was formulated under the 
U.N. Framework Convention on Climate Change, which is----
    Mr. Shimkus. OK. Let me--I just taught high school 
government and history. I mean, I don't profess to be an expert 
on the Constitution, but only a treaty gets voted on by the 
legislative branch, and not even the House--the Senate.
    Mr. Light, would you agree with that?
    Dr. Light. That is true, sir. But----
    Mr. Shimkus. Well, let me ask----
    Dr. Light [continuing]. Depends on----
    Mr. Shimkus [continuing]. Let me just ask--let me ask you 
this question: Why didn't the Obama administration submit this 
as a treaty?
    Dr. Light. Because it was not a treaty. Because it was an 
agreement under the treaty that we had already agreed to that 
passed with unanimous support in the Senate, Republicans and 
Democrats--the U.N. Framework Convention on Climate Change. 
This was an agreement under that treaty that the Senate had 
already ratified.
    Mr. Shimkus. So, Mr. Thernstrom, you heard--in your 
testimony you highlight the need for a national buy-in, and 
maybe through the subnational groups you are going to build 
that consensus, and we may be there.
    There was actual shifting since this last time we had this 
debate, and I think you can hear that on our side. Why is it 
important for this decision to be vetted by a legislative body?
    Mr. Thernstrom. As other witnesses have testified today, 
the subnational actors certainly can take action in many 
respects, but they have also all called upon the Federal 
Government to use its resources, which are much greater than 
those of subnational actors, in a coordinated fashion and, 
obviously, we lack a political consensus in this country to 
produce a Federal policy on clean energy innovation and 
climate-related emissions.
    And so, if we could reach that consensus--and I think this 
committee is obviously the place to have that conversation--I 
think everyone at the table here would agree that Federal 
action--I think that is what I have heard from all witnesses, 
is that Federal action could be much more effective than the 
State and local action, and it is, obviously, that political 
process that you are speaking of that would enable coordinated 
and ambitious Federal action, and I hope that we can get there.
    Mr. Shimkus. And we have this fight and this debate in our 
committee all the time. Can a Federal agency do this? Do they 
need more legislative language? How do you impart it? How do 
you have the force of law?
    So other than going through the legislative process and 
binding us to the votes that we cast, we are going to be 
whipsawed back and forth by administrations here and there and 
we will not have a consistent national policy for the decades. 
And I think we all agree.
    I mean, if you look at the Climate Action Tracker, which I 
used in my opening statement, even going to the Paris Accords 
now you are plateauing.
    Talk about--and my time is almost out so I only have a 
minute left--Mr. Thernstrom, done poorly with all the different 
aspects of energy use in this country, how could that affect 
jobs and the economy and the cost?
    Mr. Thernstrom. As my testimony, especially my written 
testimony, indicates, I think climate protection is a very 
important value for myself and for many Americans, most 
Americans even.
    But I think balancing climate concerns with the other 
values in this space such as protecting, you know, affordable 
energy sources for consumers is critical both to achieving the 
political consensus that we have been calling for in this 
exchange but also for the technologies to actually reach the 
level of economic competitiveness that would allow them to 
scale successfully into global markets and be used in 
developing nations.
    So I think keeping costs of clean low is crucial to both 
political consensus, to durability of policy over the years, as 
you suggest, and to acceptance within the global marketplace, 
which is key to environmental performance.
    Mr. Shimkus. My time has expired. Thank you, Mr. Chairman.
    Mr. Tonko. Thank you, Mr. Shimkus.
    The House has called for at least three votes. The time 
estimate for that is about 40 minutes. So what we are going to 
do is move to Chairman Pallone for his questioning for 5 
minutes. Then we will take a recess to go vote and we will come 
back after that, 15 minutes after the last vote is called.
    So Chairman Pallone?
    Mr. Pallone. Thank you. I had some questions to ask Mr. 
Hultman, but Mr. Shimkus keeps making me veer from my 
questions.
    I just think this----
    Mr. Shimkus. It is working.
    Mr. Pallone. I don't mean to be so critical, Mr. 
Thernstrom, but I just--this whole argument about treaties 
versus agreements, look, the bottom line is it is very obvious 
that the Paris Agreement sets up, as I think Mr. Light said, 
essentially a voluntary process where the, you know, parties 
are going to meet from time to time to see what they can 
accomplish and, you know, I don't--I don't understand why in 
the world the President felt it was necessary or suggesting to 
withdraw to this process that is, you know, essentially 
voluntary and, you know, my point is that President Trump is 
the outlier here.
    I haven't heard anyone on the Republican side--maybe I 
shouldn't bring it up but I haven't heard any of them say they 
think we should have withdrawn from the Paris Agreement.
    To me, Trump is the outlier. He just wants to send a signal 
that somehow we are not going to be part of this and move in 
the opposite direction on climate change, which is probably 
contrary to almost everybody in this room, regardless of being 
a Democrat or Republican.
    I mean, even his own daughter I remember at the time was, 
like, you know, pleading with him, don't withdraw--this is a 
voluntary agreement. I mean, I don't even know if anybody in 
the White House agreed with him. Certainly, his family didn't.
    So, you know, all this discussion about, you know, treaties 
versus agreements I just--I just think it's, you know, largely 
irrelevant. I don't mean to be disrespectful but I just think 
that he was trying to send a signal that I am not going to move 
on climate change--I don't believe that climate change is an 
issue and I am going to try to kill everything we have done 
under Obama to lead in that direction.
    And he is an outlier. We should just recognize. 
Unfortunately, he is the President. Let me ask Mr. Hultman, you 
know, it is interesting that it is almost the opposite. You 
know, Mr. Shimkus talked about, you know, France and other 
countries that, you know, where the leaders are trying to move 
forward and they are getting resistance.
    I almost feel, based on what Ms. Frisch said, it is the 
opposite here. Our leader is trying to move backward and the 
business community and the grassroots are saying, no, don't do 
that. It is sort of interesting in a way.
    But what I wanted to ask you, Mr. Hultman, is this whole 
issue with the--you know, with--well, you call them the 
subnational or non-Federal actors. What is it that we can do to 
make it easier for these subnational actors to take meaningful 
action and live up to our Paris commitments? You sort of 
suggested that they are--at some point they are going to have 
their own limitations.
    Is there something we could do maybe on a bipartisan basis 
to make it easier for them to continue in that vein? Or what 
kind of challenges will they face because of Federal inaction?
    Dr. Hultman. There are a few things that I think can be 
done now at the Federal level. And let me just pick up on your 
previous comment that, yes, we are seeing this leadership and I 
think this actually is an element that ties together some of 
the comments that we have heard today from you all, that we are 
building through this substantial, you know, set of leadership 
across party lines in some cases some ideas and some strategies 
for reducing emissions. We are----
    Mr. Pallone. By the way, I have a lot of Republican mayors 
and county legislators. There isn't a single one of them that 
agrees with the President on Paris. Not one.
    Dr. Hultman. And in many cases, as Carla also mentioned, 
that a lot of these actors are doing these in response to 
demands from their constituencies and being responsive and 
trying to lead in the ways that they see being valuable for 
their--for their organizations, for their jurisdictions.
    So we are seeing what I would argue we had to do anyway in 
this country. We had to anyway leverage all of these levels of 
government, leverage all of the leadership.
    Think about what is going to work and not work in our 
various kinds of situations and build from the ground up a 
strategy that we can use then, stitched together at the Federal 
level.
    Mr. Pallone. Is there anything--because we are going to run 
out of time----
    Dr. Hultman. Yes.
    Mr. Pallone [continuing]. Is there anything that we can do 
to make it easier for them or challenges they are going to face 
because of what we----
    Dr. Hultman. I think it is important to make sure that 
those States and cities which want to be leading and out ahead, 
that from the Federal level we allow them to do so. I think 
that is sort of first and foremost--do no harm. I would 
highlight the State of California in particular, which is 
trying to move forward on some of its regulatory actions.
    Also, to make sure that we are as somebody--I think Andrew 
mentioned--spending out the funds that have been allocated to 
those jurisdictions--for example, weatherization efficiency. 
That is helpful for low-income people, it is helpful for 
building the basis for future reductions.
    Mr. Pallone. I know we are running out of time but, Mr. 
Chairman, is there something Mr. Light wanted to say?
    Dr. Light. Thank you, sir. I just wanted to go back to one 
thing you said at the top on the voluntary nature of the Paris 
Agreement. Absolutely correct.
    It is important to remember, though, that the rules on 
transparency, on accountability, those are binding.
    Mr. Pallone. OK.
    Dr. Light. That is the interesting combination we set here. 
This is why this is not just a vacuous agreement and it doesn't 
have force like a treaty.
    Now, you know, Mr. Thernstrom said that innovation is the 
key and treaties are not as important. I agree innovation is 
totally important. But the important thing is that we need to 
know whether other countries are actually fulfilling the 
pledges that they are making publicly.
    The only way we know that is if we actually have the rules 
that we have agreed to under Paris that put developing and 
developed countries on the same terrain of accountability.
    Mr. Tonko. So we need to go vote. We will stand in recess 
and return 15 minutes after the last vote is called.
    With that, we are in recess.
    [Recess.]
    Mr. Tonko. We have our witnesses back at the table. We have 
our next Member who chooses to question the witnesses here. So 
I call the subcommittee back to order.
    And now we will recognize the Republican leader of the full 
committee, Mr. Walden, for 5 minutes.
    Mr. Walden. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman.
    Mr. Tonko. You are welcome.
    Mr. Walden. And thanks to our witnesses for returning. 
Sorry. When we have these votes on the floor, they are just 
part of our constitutional responsibility as well.
    So there has been some discussion this morning, I know, 
about treaties versus agreements in the context of the Paris 
Accords, and Mr. Thernstrom stated in his written testimony, 
and I agree and I quote, ``The Paris Agreement could not 
succeed since the agreement was a substitute for rather than 
the product of a domestic political consensus,'' which I think 
is a really important point.
    The role of the Congress should not be circumvented in 
addressing such sweeping policies that impact so many aspects 
of our daily lives, from our utility bills to what we pay at 
the pump to the livelihoods of American citizens.
    And that is what I hope and I trust with our chairman that 
we will be able to build here as a consensus--bipartisan 
consensus. That is how big things get done. This is a big thing 
that needs to get done.
    Mr. Thernstrom, last November, Bill Gates was quoted at a 
Stanford Precourt Institute for Energy event as saying, and I 
quote, ``The `climate is easy to solve' group is our biggest 
problem.'' ``The `climate is easy to solve' group is our 
biggest problem.'' He said this in context of people who assume 
that we have the current tools to address climate change and 
should be able to do so rather easily.
    Do you agree that this is not an easy problem to solve--
that we do not currently have all the technologies needed to 
solve it?
    Mr. Thernstrom. I very strongly agree with that, Mr. 
Walden, and I think that the--consequently, as I said in my 
statement earlier, I think the core focus of Federal policy 
should be on driving energy technology innovation.
    I do think that, obviously, as I said, we have made great 
improvements----
    Mr. Walden. Right.
    Mr. Thernstrom [continuing]. In performance of clean energy 
technologies. Prices are coming down and we see that in the 
marketplace. There is a lot of adoption of those technologies, 
as many witnesses here has testified. So I celebrate those 
accomplishments.
    But, clearly, if the technology was where we needed it to 
be today----
    Mr. Walden. We would be done.
    Mr. Thernstrom [continuing]. We would be done. We wouldn't 
need policy. And so I think all of the analysis that I have 
seen suggests that we can make improvements today but to get to 
where we need to be in the energy sector we need significant 
innovation.
    And even the utilities that I am aware of that are most 
forward leaning on this--that have made the most ambitious 
commitments to action all understand that this question is not 
just about using today's technologies. It is about getting to 
better ones and there is an important role for public policy in 
that as well as for the private sector.
    Mr. Walden. I was in a meeting yesterday with some leaders 
from one of the world's largest oil companies and I asked them 
the same sort of question about innovation in their space, 
especially as it relates to methane capture and carbon capture 
and sequestration.
    And they started to tell me about some of the cutting-edge 
technologies they are investing in to see what they can get 
done, and that is where I think, as Americans, we are unique in 
the construct that we believe in--the entrepreneurial spirit.
    We believe in that innovation. We believe in that a couple 
of guys in a garage in San Jose that do some weird stuff and 
end up with a company named Apple or, in my context, a guy with 
a waffle iron that developed a little shoe we know now as Nike.
    You know, and I have great confidence we can do that here, 
and from a positive standpoint. In fact, the study you 
submitted in your testimony says that a bet exclusively on 
today's apparent winners--solar, wind, and battery storage--
should be a mistake. Why do you think that?
    Mr. Thernstrom. So the point of that--the point of that 
study is to say that we can see--as I have said, I applaud the 
success of renewable energy technologies in improving their 
performance in recent years.
    Mr. Walden. Right.
    Mr. Thernstrom. But if you think about the question of how 
you get to a clean energy system as a whole--not just to have 
some incremental progress--all the analyses that I have seen 
agree that having a diverse mix of fuel sources within the 
energy system is really crucial to getting to--to maintaining 
low cost as we reach for higher levels of decarbonization. So--
--
    Mr. Walden. And should advanced nuclear be part of that 
mix? Does it have to be?
    Mr. Thernstrom. Absolutely. My organization is a strong 
believer in investing in the full portfolio of technologies, 
very much believe that advanced nuclear is part of that, 
advanced carbon capture as well and many renewable 
technologies. So we see value, as I say, in that full 
portfolio.
    Mr. Walden. And, I assume, hydropower?
    Mr. Thernstrom. Absolutely.
    Mr. Walden. We have studies from our own agencies saying we 
can increase hydropower dramatically. Now, there are some price 
points here, too. It is one thing to say you can do it. It is 
another to say the market would accept that higher price in 
some of these facilities. But we know that is carbon neutral.
    Mr. Thernstrom. That is correct, sir. I know some advocates 
are working very hard on figuring out how we can get more 
productivity out of our existing hydropower resources and 
things like that and I certainly applaud those efforts.
    Mr. Walden. My time is expiring. I know we have focused 
kind of on energy in this discussion. We need to do this on 
manufacturing, what we can do to capture carbon. I have heard 
of technologies that are being developed where you could sort 
of drop powder in and--elementary level here--and it would 
surround the molecules and pull it out, the carbon is taken 
out. It would be fascinating to be able to get in that 
discussion.
    If we are going to add all these electric vehicles--I drive 
a hybrid on both coasts--but, you know, that is going to be a 
drain on the energy grid but it can also be a big storage 
battery. I mean, I have heard of that discussion.
    So anyway, I appreciate all our witnesses here today. Sorry 
I have to come and go but, Mr. Chairman, thank you for your 
indulgence and I yield back.
    Mr. Tonko. OK. The gentleman yields back, and can I just 
please encourage the witnesses to speak into the mic so that we 
can all record well and hear well.
    So with that, the Chair now recognizes the gentleman from 
Virginia, Mr. McEachin, for 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman, and let me begin by 
thanking you for calling this hearing and all of our witnesses 
for sharing your expertise.
    I also want to acknowledge my friends and constituents back 
home who have worked hard to show that whatever the Trump 
administration may say or do about the Paris Agreement, 
Virginia is still in.
    I know many others up here can say the same things about 
their communities, their citizens and their friends back home. 
Part of our job is to ensure that those folks are not alone, to 
give them a Federal Government that supports and further builds 
on their work instead of ignoring it or trying to thwart it.
    I have tried to do my part. In the last Congress, I was 
proud to introduce a bill that would have forced the Trump 
administration to acknowledge over and over that the U.S. 
withdrawal from the Paris Agreement is disastrously out of step 
with the choice that all of our partners and allies around the 
world are making.
    So I think this hearing is a very important step and I hope 
it helps to lay the groundwork for some of the concrete policy 
changes we desperately need.
    And with that, Mr. Light, I would like to ask you the 
following. Some of my friends across the aisle oppose 
aggressive climate action because they say the challenges we 
face are bigger than our one country--we cannot solve them 
alone.
    I actually agree with that point. Other countries need to 
pull their weight. But the outcome--collective action--is 
exactly what the Paris Agreement was meant to achieve.
    Can you explain how the imperative to influence other 
countries makes climate action at the Federal level an absolute 
necessity?
    Dr. Light. Thank you, Representative McEachin, and I just 
want to say I appreciate your leadership on the Paris climate 
act on transportation and a host of other issues for helping 
the country and helping the district and State.
    I think that the--you know, that one of the things that has 
been coming out here, and Representative Walden just mentioned 
it, is sort of this idea that we shouldn't have moved forward 
with Paris because there wasn't a bill that came out of 
Congress to support the U.S. position.
    And I think that this is wrong for a number of reasons that 
you have just touched on.
    So, first of all, President Obama did ask the Congress at 
least three times in State of the Union speeches to bring 
forward legislation so that he would have a commitment that he 
could use to take and build a commitment under Paris.
    We didn't get a law come out of Congress. But climate 
change is moving on. The urgency was still there. The United 
States had to act. The United States can't solve the problem 
alone. But we are not going to be able to get the buy-in from 
other countries unless the United States is there to move them 
along, and I gave several examples of that in my testimony.
    Secondly, we are losing the competitiveness race to China 
and other countries. If you just take--the ISC had a study that 
just looked at the pledges from developing countries alone 
under Paris. That created a $23 trillion market in 
transformations, in energy, and infrastructure abroad.
    The United States has to compete with that and if we are 
not part of Paris, if we are not part of these coalitions, we 
are going to lose the race and other countries are going to 
gobble up those markets and gobble up the jobs from that.
    And so that is where you need the United States there to 
cooperate and bring other countries along and also not to 
suffer by appearing to be dragging everyone behind, which is 
what we are doing now.
    Mr. McEachin. Thank you for that.
    Ms. Frisch, did I say that close? OK. You know, we always 
talk about the States are laboratories for democracies--for 
democracy. And you have stated that States with commitments to 
climate have reduced their greenhouse emissions faster than the 
rest of the country while growing their economies.
    What have the last 2 years taught us about the economic 
feasibility of large-scale action?
    Ms. Frisch. And thank you for that question.
    The initial States in the U.S. Climate Alliance not only 
found that they were able to reduce their emissions faster than 
the rest of the country but their economies grew faster than 
the rest of the country. They are making commitments to reduce 
emissions that also have all kinds of cobenefits like jobs and 
technology.
    And on the technology front, you mentioned the costs coming 
down. We have seen that trend just continue to go and go, and 
even one of the leaders of the second largest utility in the 
U.S. said recently that by the early 2020s, which is not that 
far from now, renewables plus storage--building that new will 
be cheaper than continuing to operate existing coal and 
existing nuclear.
    So we have seen that trend over the past years and can look 
forward to that in the future.
    Mr. McEachin. Thank you.
    Mr. Hultman, I am sorry. I just have a little bit of time 
left. But can you explain what you mean when you say why the 
experiences of State and local actors have actually helped ease 
the way for systematic Federal action?
    Dr. Hultman. Sure, and very briefly, Federal action can 
fill in some of the gaps where city, State, and business action 
can't, and we have a Federal system. There are different policy 
levers that each level of government has.
    What those city, States, and businesses are doing today is, 
first of all, building out more efficiency and more renewables 
in their contexts. That allows the Federal Government to take 
that and build on it and, similarly, it helps drive down costs 
of those technologies.
    Mr. McEachin. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentlelady from Washington 
State. Representative McMorris Rodgers, is recognized for 5 
minutes.
    Mrs. Rodgers. Thank you, Mr. Chairman, and thank you, 
Ranking Member. I appreciate everyone being here and sharing 
your thoughts on the issues impacting our environment.
    Clearly, the climate is changing and global industrial 
activity is a contributing factor. I believe that we must play 
a role in reducing carbon emissions and being good stewards of 
our natural resources. Part of why I have fought for the 
advancement of clean energy resources like hydropower, nuclear 
energy, biomass, hydrogen fuel cells.
    It is also why I have long advocated for active forest 
management and reforms that we need to reduce the risk of 
catastrophic fires like the ones that we experience regularly 
in the West, and these decimate our carbon-capturing forests 
and emit toxic smoke into the atmosphere.
    I believe that these and other realistic market-based 
solutions that incentivize use and investment in clean energy 
resources are the answer, not the big government proposals that 
harm our economy and force the American people to bear 
unreasonable burdens.
    Mr. Thernstrom, as you may know, I am a strong proponent of 
hydropower as a piece of the comprehensive clean energy program 
that we need. My home State of Washington is a large producer 
of clean renewable reliable hydropower and I have supported 
efforts to advance this clean energy both nationally and 
internationally, I believe, that we should be doing.
    With the role that Washington State plays in hydropower 
energy production and the overall role that hydropower plays in 
the United States, I just wanted to get your thoughts on how 
hydropower can grow as a power resource on the international 
level.
    You note in your papers that there may be geological limits 
to current expansion of hydropower but you see promising 
technological advances that would increase its usefulness as a 
clean baseload power source.
    I just wanted you to discuss that a little bit further and 
also hear what you think the United States needs to do to 
remain a prominent player in the hydropower arena 
internationally.
    Mr. Thernstrom. Thank you very much for that question, 
Congresswoman, and I should say at first that I don't actually 
consider myself an expert on hydropower. So take my answers for 
what they are worth. I study it in the context of innovation 
and clean energy technologies, broadly.
    I do believe that hydropower has a very important role to 
play in this, particularly because it is a renewable resource--
energy resource--that is also firm, that it is dispatchable 
mostly when you need it.
    Obviously, weather conditions can affect the status of 
reservoirs and dams and therefore the ability to dispatch that 
power indefinitely.
    But, fundamentally, hydropower can be considered a firm 
resource and therefore plays a crucial role in a reliable low-
cost clean energy system. So I applaud the role of hydropower.
    The question is, of course, how much more can we get out of 
our hydropower resources. There are limitations on the 
geography for where new hydropower can be developed and, 
obviously, there are questions of community opposition in some 
places.
    I know many environmental advocates are interested in how 
we can get more power out of existing resources that we have, 
so without building new dams, repower those and get more 
productivity out of that, and I certainly think that is a very 
strong place to start with that question.
    Mrs. Rodgers. Thank you. You may be aware that last year 
this committee passed legislation to expedite the 2-year 
licensing process for pumped storage hydropower. As we are 
focusing on innovation I think we should also be focusing on 
identifying the regulatory barriers to implementing advanced 
technologies. What role do you see regulatory reform playing in 
serving our efforts to speed up clean technology deployment?
    Mr. Thernstrom. Again, thank you for that excellent 
question. I do think that there are many instances in the 
hydropower space and within--with many of these other 
technologies where existing regulatory structures are an 
impediment to the adoption and rapid use of these 
technologies--that we can make them--we can make it easier for 
businesses, for utilities, for States that want to be leaders 
on this to actually move forward with that by looking at the 
regulatory barriers that we have now.
    I applaud that hydro bill. I think we see similar efforts 
in other areas with other technologies to try to make it easier 
to build advanced nuclear reactors, to test new fuel cycles, to 
build carbon capture, to move carbon dioxide through pipelines 
and inject it underground.
    Across the suite of technologies we see there are 
regulatory barriers to the adoption of clean energy that I 
think this Congress should be looking at and trying to lower in 
every instance.
    Mrs. Rodgers. Yes. Only 3 percent of the dams actually 
produce hydroelectricity in America, and we could double that 
without building a new dam. But, unfortunately, it takes 10 
years on average to relicense one of those dams. So there is 
more to be done.
    Thank you very much.
    Mr. Thernstrom. Thank you.
    Mr. Tonko. The gentlelady yields back.
    The Chair now recognizes the gentleman from California, 
Representative McNerney, for 5 minutes.
    Mr. McNerney. I want to thank the Chair and I thank the 
witnesses this morning.
    Mr. Light, Mr. Latta, my colleague, and I cochair the Grid 
Innovation Caucus, and I am committed to modernizing the grid 
to keep up with the demands that the electoral system is going 
to be seeing in the future.
    What do you think needs to be done to educate the 
ratepayers and the PUCs and the policymakers and the consumers 
about having utilities adopt this technology?
    Dr. Light. Well, I think this is an excellent example of 
where--again, I am all in favor of doing work on RD&D, on 
innovative technologies, on battery storage, on, you know, 
small nuclear.
    We need to--this is an all of the above--all forms of clean 
energy have to be deployed to meet these larger targets. That 
is an excellent example of where we have got a problem right 
now that we solve. We can't move forward on those until we do 
grid modernization.
    Mr. McNerney. And we have to educate the different 
stakeholders.
    Dr. Light. And we have--and we are going to have to----
    Exactly. We have to educate the stakeholders that there is 
a market out there to be had. This transition is better for 
them. It avoids longer-term risks.
    It also, at the end of the day, will lower their 
electricity rates and this requires programs out there--not 
draconian regulations of any sort but programs out there that 
help people to understand the opportunities before them.
    Mr. McNerney. And investments as well.
    Mr. Thernstrom, thanks for coming in this morning. And I 
appreciate your comments about the need for innovation.
    What Federal policy do you--what Federal policy do we need 
to encourage the adoption or--and acceleration of clean energy 
technology? What Federal policies are we going to need?
    Mr. Thernstrom. Well, obviously, there isn't a simple 
answer to that question. It is a complex range of things. As 
you know from our previous conversations, sir, I believe in a 
mix of policies that could be knitted together in one coherent 
package.
    But, broadly speaking, I think it is important to have 
technology push--that is, investments in innovation in the full 
suite of technology spaces--renewables, efficiency, carbon 
capture, nuclear, hydro.
    Across the board, we need to invest in advancing those 
technologies. I do think in the long run there needs to be 
demand pull as well. We need to know what the rules of the road 
are going to be in the power sector.
    We have a state of flux, let us say, in what the regulatory 
requirements will be and I think this committee is the place to 
think about what the long-term rules of the road will be for 
the power----
    Mr. McNerney. It sounds like you are advocating for 
consistent long-term policy.
    Mr. Thernstrom. That is right. I do think----
    Mr. McNerney. And I think everybody here would agree with 
that. So----
    Mr. Thernstrom. I think that is crucial that----
    Mr. McNerney. But, I mean, the problem is getting a 
bipartisan agreement on that. So it is going to take pain on 
both sides if we are going to get there.
    And we are--OK. Enough said.
    Mr. Thernstrom. Well, I agree with you on that point, sir.
    Mr. McNerney. Mr. Hultman, I am working on legislation to 
improve our understanding of stratospheric composition and 
aerosol interactions.
    Now, would this research be helpful in establishing a 
baseline of current conditions that is needed before any NGO 
engineering deployment could be considered?
    Dr. Hultman. Thank you for the question, and I want to 
distinguish two pieces of this question.
    One is that in the broad science of climate change we 
definitely know enough to take actions today of the kind we 
have been talking about I think that are being taken both at 
the subnational level and maybe bringing some of those ideas to 
the Federal.
    That said, there are some significant uncertainties about 
how human interference or human contribution to a 
geoengineering approach to climate change would actually work, 
and this was highlighted in the National Research Council 
report of a couple of years ago that really called for some 
necessary investments in understanding the scientific elements 
of a geoengineering strategy. So the short answer is yes.
    Mr. McNerney. Well, that was the only answer.
    Thanks. Anybody can answer this one. In order to address 
climate change we are going to have to move rapidly in reducing 
our carbon emissions and removing carbon from the atmosphere.
    What are the most promising technologies right now that we 
have out there to do that? Whoever wants to take that question.
    Ms. Frisch. I think the most promising technologies that we 
have out there are the ones that can help prevent emitting that 
carbon dioxide into the atmosphere in the first place.
    So those are ready to go and being deployed in those 
spaces. But as the other panelists have said, we have to bring 
every single technology to bear on the solution--to bear on 
this problem to be able to get on track and reduce emissions as 
quickly as we need to.
    Mr. McNerney. I saw an article--I think it was in the New 
York Times--about a promising technology in Switzerland to 
remove carbon cheaply. I mean, there must be some really good 
technology out there that we need to look into and encourage.
    Ms. Frisch. Right. I read that article, too, and I think 
the key there was that it is in the R&D phases and the costs 
need to come down. So we should definitely be encouraging that 
while we are deploying the technology that we already have.
    Mr. McNerney. Right.
    Mr. Thernstrom. If I may, I would just agree with Ms. 
Frisch that I think halting emissions from existing sources 
first and developing, say, carbon capture technologies that 
would facilitate the development of carbon removal in the long 
term, that is the pathway we need to take.
    Mr. McNerney. All right. Thank you.
    Mr. Chairman, I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from West Virginia, 
Representative McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    And this subject is long overdue to having a conversation 
on this because there--obviously, there are storm clouds on the 
horizon.
    Around the world there is still a voracious appetite for 
the use of fossil fuels and they are predicted by the next few 
years that the global increase--its consumption of fossil fuels 
by up to 16 percent.
    So the idea of how we are going to deal with that issue is 
complex. America could very well lead the way and we have in 
decarbonizing and lowering our emissions--CO<INF>2</INF> 
emissions down to 16, 18 percent--21 percent by some standards.
    But yet China and India have markedly a continued increase. 
So what is it, the number of--China is up 290 percent in this 
decade, and India 235 percent.
    So the thing that I am perplexed about is that we can go 
about--American continuing to lead and make our reductions 
where--again, up to 20 percent. We have already begun complying 
with the Kyoto and the Paris Accord by making reductions.
    But the rest of the world isn't, and so as a result, we are 
going to be the ones that suffer with this. We are still going 
to have--across the globe you are going to have climate change. 
We are still going to see the oceans rise, temperatures again 
increase.
    Miami is going to be under water and all that--we have done 
everything. We have complied totally with it. So the thing that 
bothers me the most about this is that we are asking people, 
other nations of the world, to implement reductions in their 
emissions but we are not giving them the tools to do it. There 
is no technology that is economically feasible out there right 
now.
    So the fact that, Mr. Thernstrom, we have been working 
together, quite frankly, so with all disclosure here to try to 
figure out what is a solution to give--empower these other 
countries to implement something that is cost effective and 
because if we don't and they continue to burn fossil fuels, we 
are still going to have a water problem.
    We are still going to have droughts. We are still going to 
have severe weather all around the globe. Maybe not in America 
but around the world is going to suffer.
    So I think if we--if the primary cause is how we capture 
carbon, I think we need to have the innovation and we have to 
move it up first. Do the innovation first.
    Show that what the technology, and then we can export it to 
the rest of the world and make it so that it is affordable for 
them to do it because they are still going to use carbon.
    We--I think we have the responsibility to lead the way in 
doing this. But let us make sure that we don't put the reverse 
in--we don't put a hammer approach. Let us use the innovation 
first and then go to implement the policies then to follow back 
with that.
    So if they don't have the--Mr. Thernstrom, if we don't have 
the technology yet, what are you suggesting? What now--what 
could we do? I know last year we passed 45Q to be able--that 
was a major step to show how we might be able to do that to 
develop that in carbon capture.
    What are--what are some of the thoughts that you would have 
how we might do the innovation first? Unfortunately, we lost 
one of our Members here that I know has an interest in 
innovation.
    But give me a little bit more on your spin.
    Mr. Thernstrom. Thank you, sir, and thank you for your 
leadership on this question. I guess I would start my answer to 
that question by you ended, with 45Q as an example of both what 
I think can be done that is constructively but also what more 
needs to be done.
    So full disclosure, I was up here advocating for 45Q 
passage for almost more years that I can remember--I think it 
was seven or eight. I think 45Q was a very important step 
forward.
    At the same time, we are actually seeing very few projects 
are being built so far because of 45Q, although I still have 
high hopes that more will come.
    The reason for that is that 45Q is one lever within a very 
complex energy system. And so what I keep saying to you and 
others is that, if we want big outcomes from big energy 
systems, we need big inputs.
    And that is why I think it is important for the members of 
this committee to come together around some consensus about 
what policy proposals would be.
    As you know, another theme of mine is that the innovation 
needs of different technology families are distinct. So my 
answer to you is what we need to do for fossil decarbonization 
is different than what we need to do to advance nuclear and 
that is different from what we need to do for solar.
    And I would encourage you and other members of this 
committee to look at the specific needs of those technologies, 
have policy responses that are tailored to them but which are 
comprehensive and ambitious rather than just these one-off 
small ball type approaches. That is how we will get to big 
outcomes in the energy system that we all----
    Mr. McNerney. Thank you. My time has expired. I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentlelady from the State of 
Delaware, Representative Blunt Rochester, for 5 minutes.
    Ms. Blunt Rochester. Thank you, Mr. Chairman, and thank you 
so much to the panel.
    I am very happy to be joining you here at this hearing 
because as I jumped out of the room for a minute I had to meet 
with students, our Delaware Civil Air Patrol Cadets, and I 
thought about the significance of this conversation and how 
important it is not just to my State and our country but to the 
planet.
    And I want to start by saying I am pleased to say that my 
home State of Delaware wasted no time joining the U.S. Climate 
Alliance and I believe it is encouraging to see so many local 
governments and communities stepping up to act on climate 
change.
    Local officials are on the front lines of protecting our 
communities. But they need that Federal support. And I am 
concerned that a piecemeal approach may create an uneven 
playing field where some communities may take meaningful steps 
and look out for their most disadvantaged citizens while others 
may not.
    And, as you know, climate change is already affecting 
communities across the United States and those communities will 
only intensify over time.
    So I would love it if you could talk a little bit, Mr. 
Hultman and Ms. Frisch, have you seen any successful examples 
of local climate action addressing the unique challenges faced 
by disadvantaged communities? And what lessons can be learned 
at the Federal level from those case studies, again, examples 
of local climate action in disadvantaged communities?
    Dr. Hultman. So I will give two quick examples, and I think 
Ms. Frisch probably has some others because she has been 
working in--across different kinds of technologies in this 
space.
    But, very briefly, there are two areas that I would look at 
and this does tap into our conversation about the simultaneity 
of deploying new technology but also doing innovation with, you 
know, as necessary.
    A third thing that we can imagine as part of that is jobs 
and economy, and I think that, for example, there has been a 
lot of new work, as we are talking about students and sort of 
new training, in looking at, for example, solar and wind 
installers, right. Like, that is an area where you can, with 
some technical training, you know, people can actually learn 
the toolkit.
    They can take sort of construction skills and apply it and 
be able to move forward with a career in this new and 
exciting--new and exciting area.
    A second area that is also quite useful, which has often 
partnerships across Federal, State, and local government is 
thinking about efficiency in weatherization and those are 
things that save everybody money and are particularly valuable 
for those populations that are lower income.
    And also, you know, there are a lot of benefits too in 
terms of emissions, but primarily they are also helpful to the 
people who live in those spaces.
    Ms. Blunt Rochester. Thank you.
    Ms. Frisch?
    Ms. Frisch. Thank you for the question, and two additional 
examples are in clean electricity production and clean public 
transportation that can significantly reduce air emissions, 
which cause all kinds of problems like asthma and can actually 
reduce the length of people's lives.
    And one of the great things about the subnational action 
that you mentioned with cities, States, and businesses is that 
it is inherently local and those people's voices are coming to 
the table and they will talk with their policy makers and make 
policies that really work for them in those communities.
    And I think what we are learning from that is the lesson 
we've always known that it is good to be reminded of--that it 
really is about bringing people together. And for climate 
action in the U.S., I mean, let's face it, the way we often do 
Federal policy the Federal Government lags behind public 
opinion and we are seeing this wave of public opinion about 
climate ready to go and it is crashing on us now.
    So we are happy that you and members of the subcommittee 
are really taking this seriously.
    Ms. Blunt Rochester. Thank you.
    Mr. Light, my next question is for you and it is based on 
the testimony that you gave. You had a statistic that really 
jumped out at me that China is investing ten times more than 
the United States in research and development.
    Can you talk about the potential consequences of that 
discrepancy in funding? I actually lived in China for 4 years 
and I saw it first-hand. So if you could talk a little bit 
about that.
    Dr. Light. It means that they are going to win the markets 
that have been created by the Paris Agreement. I mean, we can 
talk about, you know, whether the United States should have 
moved forward and the status of our pledge and whether 
agreement versus treaty and all that kind of stuff.
    And in the meantime, China and the EU, Canada, other 
countries, are jumping ahead and grabbing the markets that were 
created by the fact the rest of the world is worried about 
climate change, they want to do something, and the prices are 
plummeting so it actually is affordable for them to move to 
solar power and other things.
    Otherwise, the prime minister of India would not be moving 
full force into this. If it was too expensive he wouldn't do 
it.
    Ms. Blunt Rochester. Thank you so much.
    I also wanted to ask a question about the impact of the 
$600 million going unspent that you talked about in your 
testimony. Can you briefly--ten seconds.
    Dr. Light. Sure. You all have allocated--the last 
Congress--put money into ARPA-E--into the Bureau of Energy 
Efficiency and Research. NRDC has a very interesting analysis 
of this that is linked to in my testimony. That money is not 
being spent. It is not going forward there and I think that 
this is something where oversight from this committee is 
directly appropriate to make sure that money goes out the door 
and it goes in programs that are not driven by ideology--that 
are driven by where is the place that we can put money in the 
near term that is going to get us the biggest bang in terms of 
something we can put out there and compete with these other 
countries that are already way ahead of us.
    Ms. Blunt Rochester. Thank you so much. I yield back.
    Mr. Tonko. The gentlelady yields back.
    The Chair now recognizes the representative from the State 
of New York--Brooklyn, Yvette Clarke, for 5 minutes.
    Ms. Clarke. Thank you so much, Mr. Chairman, and I thank 
our panelists for really lending your expertise to us today as 
we grapple with this issue.
    I represent Brooklyn, as our chairman introduced me, where 
in 2012 we saw the impact of climate change first hand when 
Superstorm Sandy devastated my district and, going forward, 
will only get worse.
    I brought with me a map showing how sea level rise is an 
existential threat to New York City. Right there. And I wanted 
to talk about the flooded areas on the map are real 
communities.
    We are talking about inundation of homes in communities 
like Gerritson Beach and Sheepshead Bay and all of our subway 
lines, quite frankly.
    As the President claims, there is a national emergency on 
the southern border, he is ignoring what I believe is a 
national emergency in his own back yard and in the absence of 
Federal leadership, what should cities like mine be doing to 
increase our climate resiliency and prepare for the impact of 
sea level rise? And I would like to extend that the entire 
panel.
    Ms. Frisch. Thank you for that question, and New York has 
been a leader in working on resilience, particularly after 
Superstorm Sandy and making some of the infrastructure, raising 
it up so it is above sea level rise in the planning.
    And that is a lesson that many communities across the U.S. 
are taking is that they need to evaluate what are those 
vulnerabilities and make a plan to address those 
vulnerabilities.
    Ms. Clarke. Does anyone else want to answer?
    Dr. Hultman. I mean, you know, community resilience is 
something everybody wants, and I think that is something that 
is a point of agreement across a lot of different kinds of 
communities and leaders in those communities.
    There are steps that can be taken today in a diversity of 
kinds of communities, and New York--I think I will echo Ms. 
Frisch's comment--has been leading in thinking about 
integrating, for example, first response with kind of weather 
understanding and how to kind of integrate those different ways 
to think about near-term action to respond to natural hazards 
or disasters.
    But that also has to be coupled with a longer-term planning 
process that does involve different kinds of stakeholders in 
that--in those community groups.
    And looking at New York's example, looking at other places 
around the country as different places, we talked a lot about 
emissions today and responding to climate through emissions. So 
I appreciate your comment about thinking of climate as a much 
broader set of issues affecting us today.
    Those same studies of city, State, and business actions 
that are happening on emissions we can also see a lot of the 
same things happening on resilience, and I think this is a 
moment where we can use those experiments, we can use those 
understandings that are developing to better inform policy.
    Ms. Blunt Rochester. It is an emerging industry that has to 
look at climate change holistically and I think that looking at 
this from a piecemeal perspective disadvantages us 
tremendously. So opponents of climate change legislation argue 
that the cost of sort of building out a green economy is simply 
too high. But they ignore the cost of inaction.
    You talked about raising homes. It is extremely expensive 
to have to retrofit old housing stock in order to raise them, 
and just to address the whole resiliency issue.
    How do we put a price tag on the damage sea level rise will 
continue to inflict on communities like mine?
    Dr. Light. So I think that the National Climate Assessment 
just submitted to Congress this last past fall and I was--I 
worked on the national climate assessment on the chapter on 
mitigation. Look at that. I think the price figures are already 
there.
    So in the higher emission scenarios, you are looking at sea 
level rise threatening a trillion dollars of assets both public 
and private in the United States.
    If that is not enough to motivate something to be put into 
the next infrastructure bill, which is, we hope, coming down 
the pike, I am not exactly sure what is.
    And in terms of what New York City needs to do and other 
cities like that, I would sort of say investment in natural 
infrastructure. We have known this from Superstorm Sandy. We 
have known this.
    The most effective way and the most cost effective way and 
the way that you can actually get lots of jobs created in your 
districts is by having people enhance natural infrastructure 
and not only just trying to build sea walls which are always 
going to be based on difficult propositions in the future.
    I think the more that Congress can do to make it possible 
for States to form cross-border alliances to achieve those 
kinds of things, because sea level rise is not going to respect 
the State boundaries, the better you are going to see a good 
outcome.
    Ms. Clarke. Very well. My time has run out. I have several 
other questions but this is to be continued and I thank you 
once again for all of your insight and expertise today.
    I yield back, Mr. Chairman.
    Mr. Tonko. The gentlelady yields back.
    The Chair now recognizes the gentlelady from Illinois, 
Representative Schakowsky, for 5 minutes.
    Ms. Schakowsky. Thank you very much, Mr. Chairman and 
panel. I am sorry that I missed most of it--not all of it--and 
I really appreciate all of your participation.
    So, first, I want to make a few remarks dealing with 
innovation. It seems to me that saying that we should focus on 
innovation rather than ambitious Federal or international 
climate goals is a false choice.
    Over the past several decades, we have seen industry claim 
time and time again that various Federal rules and standards 
are overly burdensome--and maybe sometimes that is the case--
but that they will put American companies out of business.
    The auto industry told us that, quote, ``We just do not 
have the technology to comply,'' end quote, with tailpipe 
standards, for example. We heard that requirements for 
reformulation of gasoline would result in, quote, ``major 
supply disruptions,'' unquote.
    But these claims were not proven true and, in fact, history 
has shown that strong Federal regulation and goals actually 
help drive further innovation.
    The Clean Air Act is a perfect example of that. It used 
regulatory standards to drive technology, technological 
innovation, and pollution controls.
    The act recognizes that usually costs that--that it usually 
costs less to dump pollution for free than to clean it up. So 
businesses generally don't control pollution absent 
requirements.
    Once an air pollution standard is in place, American 
industry gets to work and meets the challenge, and along the 
way we develop more effective and less expensive pollution 
control technologies.
    Not only is our air cleaner, we also export the technology, 
it seems to me, that having to meet certain standards helps us 
develop the technologies that we can export around the world.
    So not only is our air cleaner, we have seen that happen 
over and over again. So I would really like any of you who want 
to comment on the balance of regulation and technology, and I 
would be interested if anyone on this panel actually believes 
that regulation in and of itself drives down innovation.
    And so I would love to hear about that. Anyone, go ahead. I 
only have 2 minutes.
    Dr. Hultman. Thank you for the question. I will try to keep 
mine brief so if the others want to chime in they are free.
    Your comment about not being a choice between deployment 
today and innovation I think is absolutely correct. I also 
agree that your phrasing of thinking about what policy driving 
the deployment of technology is an absolutely essential part 
which Mr. Thernstrom even referred to, of pulling technologies 
into the market, and many times we need that impetus to drive 
down or drive the technology deployment, which therefore drives 
down the technology costs.
    And I will want to kind of return to one point that has 
been made in a couple of ways. But we have seen--we are in the 
middle of a revolution in energy costs right now--the costs for 
solar and wind and, frankly, other technologies have dropped 
precipitously over the last decade. Even in the last 7 or 8 
years we have seen, you know, solar costs drop by something 
like 70-plus percent.
    So those costs are dropping and they are dropping not least 
because innovation is happening but also that there has been 
deployment across a multitude of States, cities, businesses 
and, frankly, other countries.
    Ms. Frisch. Thank you for the many participants from 
Illinois and we are still a coalition.
    So to answer your question, analysis has shown that 
technology push plus from the policy pull including the 
regulations that you are talking about can actually get us 
further than either of the two. So think of one plus one equals 
three.
    You have to have both you only get so far with the 
technology push. You have to have the policy pull to move 
along.
    So as far as the Federal role, there is really an important 
role to make the priority clear so then the market can follow 
and get the progress and the benefits that you are talking 
about.
    Ms. Schakowsky. I think, clearly, and predictability is 
really important but it seems to me, I know we are talking 
about--oops, we will discuss it later offline.
    Ms. Frisch. Would love to.
    Ms. Schakowsky. Thank you. I yield back.
    Mr. Tonko. I believe Mr. Light had a quick comment to make.
    Dr. Light. Very quick. Very concrete example.
    The conversation we were just having about 45Q that Mr. 
McKinley started was a great example of where--we have got a 
regulation. The incentive has created through 45Q--that is 
supposed to help the technology like direct air capture go from 
this exploratory phase, way too expensive to be deployable to 
get something there.
    But the price is not there. And so but if you combine the 
innovation side on direct air capture with 45Q and then you put 
it in a State like California which has got a carbon market, so 
you got policy innovation, then you are talking about combined 
price that stars to make a technology like that feasible and 
profitable.
    That is the way they all three work together. The idea 
that, you know, we have got to sort of choose one path or 
another is just false.
    Mr. Tonko. Thank you very much. I believe that concludes 
all the Members who were choosing to be recognized.
    I again thank the panel for their participation today and 
enduring the recess that required our absence for votes.
    I now request unanimous consent to enter the following into 
the record: a report entitled ``Getting to Zero Carbon 
Emissions in the Electric Power Sector'' by Jesse Jenkins; the 
report entitled ``Tracking Progress of the 2020 Climate Turning 
Point'' by the World Resources Institute, the executive summary 
of the report entitled ``Fulfilling America's Pledge: How 
States, Cities, and Businesses Are Leading the United States to 
a Low-Carbon Future'' by America's Pledge; the first United 
States Nationally Determined Contribution to the Paris 
Agreement; a letter from the U.S. Chamber of Commerce; the text 
of the Paris Agreement; and President Trump's statement on the 
administration's intended withdrawal from the agreement.\1\
---------------------------------------------------------------------------
    \1\ The World Resources Institute report has been retained in 
committee files and also is available at http://docs.house.gov/
meetings/IF/IF18/20190228/108973/HHRG-116-IF18-20190228-SD007.pdf.
---------------------------------------------------------------------------
    And so request unanimous consent there.
    Without objection, so ordered. And, again, thank you to our 
panel. I remind Members that, pursuant to committee rules, they 
have 10 business days by which to submit additional questions 
for the record to be answered by the witnesses who have 
appeared.
    I ask each of our witnesses to please respond promptly to 
any such questions that you may receive.
    And at this time, the subcommittee is adjourned.
    [Whereupon, at 12:56 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Debbie Dingell

    Thank you, Chairman Tonko and Ranking Member Shimkus, for 
holding this important hearing today to discuss the urgent 
threat from climate change we all face and the Federal inaction 
from this administration that puts us all at risk.
    We know sea levels are rising.
    We know average temperatures are warming.
    We know ice is disappearing at alarming rates.
    And we know extreme weather is intensifying and becoming 
more frequent--from stronger hurricanes to colder winters. We 
have seen this firsthand across the Midwest and Michigan with 
the bitter cold polar vortex this year.
    The international community recognizes climate change as 
the generation threat that it is and multiple scientific 
reports have called on the need to act over the next decade to 
mitigate serious harms to our economy, environment, and way of 
life.
    The Fourth National Climate Assessment--prepared for the 
President and by scientists across 13 government agencies--
makes it clear:
    Earth's climate is now changing faster than at any point in 
the history of modern civilization.
    And yet, this administration choses to do nothing.
    Since the administration withdrew the United States from 
the Paris Agreement, cities and States, like Ann Arbor and 
Michigan, have been forced to rise up in the absence of needed 
Federal leadership on the world's stage.
    I am encouraged and inspired to see cities, States, and 
businesses acting, but the will of one city, one county, one 
State, or even one country will not be enough to meet the 
challenge ahead.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                                 [all]
</pre></body></html>
